<html>
<title> - BIRTHING WHILE BLACK: EXAMINING AMERICA'S BLACK MATERNAL HEALTH CRISIS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                         BIRTHING WHILE BLACK:
                       EXAMINING AMERICA'S BLACK
                         MATERNAL HEALTH CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2021

                               __________

                           Serial No. 117-20

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                            

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-572 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                          
                                  
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
             Tori Anderson, Deputy Chief Oversight Counsel
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 6, 2021......................................     1

                               Witnesses

Panel 1

The Honorable Ayanna Pressley, Member of Congress, 7th District 
  of Massachusetts
    Oral Statement...............................................     8

The Honorable Cori Bush, Member of Congress, 1st District of 
  Missouri
    Oral Statement...............................................     9

The Honorable Alma S. Adams, Ph.D., Member of Congress, 12th 
  District of North Carolina Co-Chair, Black Maternal Health 
  Caucus
    Oral Statement...............................................    10

The Honorable Lauren Underwood Member of Congress, 14th District 
  of Illinois Co-Chair, Black Maternal Health Caucus
    Oral Statement...............................................    12

Panel 2

Tatyana Ali, Actress and Advocate
    Oral Statement...............................................    14

Charles Johnson, Husband of Kira Johnson and Founder of 
  4Kira4Moms
    Oral Statement...............................................    16

Tamika Auguste, M.D., Chair of the Obstetrician and Gynecologist 
  Clinical Practice Council, MedStar Health
    Oral Statement...............................................    19

Veronica Gillispie, M.D., F.A.C.O.G., M.S., Medical Director, 
  Louisiana Perinatal Quality Collaborative
    Oral Statement...............................................    20

Joia Adele Crear-Perry, M.D., F.A.C.O.G., Founder and President, 
  National Birth Equity Collaborative
    Oral Statement...............................................    22

Jamila Taylor, Ph.D., Director of Health Care Reform and Senior 
  Fellow The Century Foundation
    Oral Statement...............................................    25

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.
                           INDEX OF DOCUMENTS

                              ----------                              
Documents entered during the hearing by Unanimous Consent (UC), 
  and Questions for the Record (QFR's) are listed below.

  * UC - Letter from Dr. David Nelson; submitted by Chairwoman 
  Maloney.

  * UC - Report comparing in-person and audio-only virtual 
  prenatal visits; submitted by Chairwoman Maloney.

  * UC - Article regarding patient perspectives on audio-only 
  prenatal visits amidst pandemic; submitted by Chairwoman 
  Maloney.

  * UC - Article regarding false labor at term in singleton 
  pregnancies; submitted by Chairwoman Maloney.

  * UC - Testimony from Dr. Heather Irobunda; submitted by Rep. 
  Ocasio-Cortez.

  * UC - Testimony from Bruce McIntyre III, husband of Amber Rose 
  Isaac; submitted by Rep. Ocasio-Cortez.

  * UC - Testimony from Carmen Mojica, midwife; submitted by Rep. 
  Ocasio-Cortez.

  * UC - Testimony from Dr. Anne Gibeau, Director of Midwifery; 
  submitted by Rep. Ocasio-Cortez.

  * UC - Testimony from Melissa Enama Bair, midwife; submitted by 
  Rep. Ocasio-Cortez.

  * UC - Letter from Mothering Justice; submitted by Rep. Tlaib.

  * UC - Letter from March of Dimes; submitted by Rep. Kelly.

  * UC - Letter from Blue Cross Blue Shield Association; 
  submitted by Rep. Kelly.

  * UC - Letter from the American Medical Association; submitted 
  by Rep. Kelly.

  * UC - Report regarding improving maternal health in America; 
  submitted by Rep. LaTurner.

  * QFRs to: Dr. Gillispie-Bell- State of LA, including response; 
  submitted by Rep. Connolly.

Documents are available at: docs.house.gov.

 
                         BIRTHING WHILE BLACK:
                       EXAMINING AMERICA'S BLACK
                         MATERNAL HEALTH CRISIS

                              ----------                              


                         Thursday, May 6, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:12 a.m., in 
room 2154 of the Rayburn House Office Building, Hon. Carolyn 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Connolly, Raskin, 
Khanna, Mfume, Ocasio-Cortez, Tlaib, Porter, Bush, Wasserman 
Schultz, Welch, Johnson, Sarbanes, Kelly, DeSaulnier, Gomez, 
Pressley, Comer, Foxx, Gibbs, Keller, Clyde, Mace, Franklin, 
LaTurner, Fallon, and Donalds.
    Chairwoman Maloney. Welcome, everybody, to today's hybrid 
hearing. Pursuant to House rules, some members will appear in 
person and others will appear remotely via Zoom.
    Since some members are appearing in person, let me first 
remind everyone that pursuant to the latest guidance from the 
House attending physician, all individuals attending this 
hearing in person must wear a face mask.
    Members who are not wearing a face mask will not be 
recognized. For members appearing remotely, I know you are all 
familiar with Zoom by now, but let me remind everyone of a few 
points.
    First, the House rules require that we see you, so please 
have your cameras turned on at all times.
    Second, members appearing remotely who are not recognized 
should remain muted to minimize background noise and feedback.
    Third, I will recognize members verbally, but members 
retain the right to seek recognition verbally, and regular 
order members will be recognized in seniority order for 
questions.
    Last, if you want to be recognized outside of regular 
order, you may identify that in several ways. You may use the 
chat function to send a request, you may send an email to the 
majority staff, or you may unmute your mic to seek recognition.
    We will begin the hearing in just a moment when they tell 
me they are ready to begin the live stream.
    The committee will come to order. Without objection, the 
chair is authorized to declare a recess of the committee at any 
time. I now recognize myself for an opening statement.
    Our nation is facing a maternal health crisis. Across the 
globe, our maternal mortality rate ranks the absolute worst 
among similarly developed nations and 55th overall, and the 
danger of giving birth in the United States is not equally 
distributed.
    The Centers for Disease Control and Prevention estimates 
that Black women are more than three times as likely to die 
during or after childbirth as a white woman. Black Americans 
experienced higher rates of life-threatening complications at 
every stage of childbirth, from pregnancy to postpartum.
    It doesn't have to be that way. The CDC estimates that 60 
percent of these deaths are preventable. So, how does one of 
the most medically advanced nations in the world continue to 
fail Black birthing people at such high rates?
    To understand, we have to take the blinders off our history 
and acknowledge that our healthcare system, including 
reproductive health care, was built on a legacy of systemic 
racism and the mistreatment of Black people and that that 
legacy continues today.
    Our current health care system is rife with implicit bias 
and structural barriers that put Black people at an inherent 
disadvantage before, during, and after their pregnancies.
    Thankfully, Black women leaders here in the halls of 
Congress and across the country have developed policies to 
systemically shift the way we approach health care for birthing 
people of color and promote programs and resources that are 
proven to reduce the rates of maternal mortality in these 
communities.
    I am honored that several of these leaders are with us 
today to discuss policies they have written and championed and 
that Congress needs to implement to protect the health and well 
being of Black people and Black families.
    These include bills like Congresswoman Kelly's MOMMA's Act, 
Congresswoman Pressley's Healthy MOMMA's Act, and Congresswoman 
Underwood and Adams' Black Maternal Health Momnibus bill.
    We are also joined today by experts and individuals who 
have firsthand experience with the ways that our healthcare 
system fails Black people in birth settings.
    I urge all of my colleagues to consider today's testimony 
and recommendations carefully. Health equity for Black birthing 
people is attainable as long as we address racial disparities 
with the urgency, empathy, and focus that this issue requires.
    I believe that this is a historic hearing that, together 
with my colleagues, we will work to have similar hearings and 
all of the seven different committees of jurisdiction and that 
we will pass these bills out of the House and to the Senate and 
send them to the president for his signature.
    I now want to introduce my co-chair for this hearing, 
Congresswoman Robin Kelly. From the moment she set foot in 
Congress, Ms. Kelly has championed efforts to turn the tide on 
this crisis.
    Her efforts recently led to a groundbreaking provision in 
the American Rescue Plan that allows state Medicaid programs to 
cover new moms for a full year postpartum.
    Ms. Kelly, it is my privilege to share the gavel with you 
today and you are now recognized for your opening statement.
    Ms. Kelly?
    Ms. Kelly. [Presiding.] Thank you, Chairwoman Maloney, for 
inviting me to co-chair this very important hearing as we take 
action to address the Black maternal mortality crisis within 
our Nation.
    To Ranking Member James Comer and my colleagues on both 
sides of the aisle, thank you for your attentiveness and 
efforts to address the maternal health crisis. The maternal 
mortality rate in the United States is an issue that reaches 
into communities across our Nation, but it is especially 
concerning for communities of color.
    Black women are three times more likely and indigenous 
women are more than twice as likely to die from pregnancy-
related causes as non-Hispanic white women. Recently, the 
Center for Disease Control and Prevention released a report 
which showed that maternal mortality continues to rise.
    The rate continues to rise. Even worse, more than two-
thirds of the deaths are preventable. For every maternal death 
in the United States, there are approximately 100 women who 
experience severe maternal morbidity or a near miss. This is 
all unacceptable and the time for action is now.
    The Federal Government has a critical role to play in 
addressing the crisis and the unacceptable racial inequities in 
health care delivery and outcomes.
    Specifically, the Federal Government should support access 
to and the provision of patient-centered data-driven quality 
maternal care, enhance coverage and support for birthing people 
during the postpartum period, and address social determinants 
of health including structural and systemic inequities in the 
country's health care, economic, social, and criminal legal 
systems.
    I have been advocating for evidence-based solutions for the 
legislation to address maternal mortality for a long time, as 
the chairwoman said. Despite all the hard work to address this 
issue, there is still a long way to go in preventing maternal 
deaths.
    In the recently passed American Rescue Plan, language from 
my Healthy Moms bill was included, which provided states the 
option of expanding postpartum coverage from 60 days to one 
full year after giving birth.
    Let me explain why this is such an important step forward. 
The American College of Obstetricians and Gynecologists 
recommends that women have access to continuing health coverage 
to increase preventive care, reduce avoidable adverse health 
outcomes, and increase early diagnosis of disease and reduce 
maternal mortality rates.
    There are major risks associated with becoming uninsured 
shortly after experiencing pregnancy. Lapses in insurance 
coverage is one of the continuing factors in the maternal 
mortality crisis, with one-third of all pregnancy-related 
deaths occur as late as one year after delivery.
    Women of color are disproportionately affected by 
disruptions in insurance coverage. Nearly half of all non-
Hispanic Black woman had discontinuous insurance from pre-
pregnancy to postpartum, and half of Hispanic Spanish-speaking 
women became uninsured in the postpartum period.
    Earlier this year, I led my colleagues in a letter urging 
HHS Secretary Becerra to approve Illinois' waiver to allow for 
additional Medicaid coverage beyond the current 60-day 
allowance. Secretary Becerra approved the waiver, making 
Illinois the first state that allows women to receive the 
postpartum care they deserve.
    Additionally, I reintroduced my supporting best practices 
for Healthy MOMMIES Act. This bill would require CMS to publish 
guidance for hospitals and other maternal care providers on 
ways to reduce maternal mortality and morbidity under Medicaid 
and the Children's Health Insurance Program.
    In the next few weeks, I will introduce my key maternal 
health legislation, the Mothers and Offspring Mortality and 
Morbidity Awareness Act, also known as the MOMMA's Act.
    This bill will help standardize data collection, provide 
grants that improve maternal and infant health, and establish 
regional centers of excellence, which will improve how our 
health care professionals are educated in implicit bias and 
delivering culturally competent health care.
    As we go into Mother's Day weekend, let us recommit our 
efforts and support to ensure that every birthing person across 
this Nation is empowered and feels safe when making that 
wonderful and exciting decision to become a mother.
    This hearing is a testament to the hard work of advocates 
and researchers and my other colleagues who have fought so long 
to elevate this issue.
    I look forward to hearing from the witnesses. Thank you so 
much.
    Chairwoman Maloney. [Presiding.] I now recognize the 
distinguished ranking member, Mr. Comer, for an opening 
statement.
    Mr. Comer?
    Mr. Comer. Thank you, Madam Chair. I want to thank all of 
our witnesses for being here to share your stories and 
expertise with us here today.
    According to the CDC's most recent available data, the 
maternal mortality rate in the U.S. for 2018 was 17.4 deaths 
per 100,000 live births. Maternal mortality for Black women is 
2.5 times the ratio for white women and three times the ratio 
for Hispanic women.
    We all agree that that is unacceptable. The United States 
is one of the most advanced healthcare systems in the world. We 
can and should have lower mortality rates. There are a range of 
factors contributing to this crisis, from lack of access to 
proper care to the maternal mental health crisis, which takes 
the lives of so many mothers.
    I hope today we can explore innovative solutions to ensure 
that maternal mortality rates in the U.S. decline. 
Historically, this issue has been approached in a bipartisan 
manner. I hope we can continue that posture today.
    This hearing is about what we can do right now to save the 
lives of women and their babies. I look forward to hearing from 
our witnesses on the amazing work they are already doing to 
solve this problem, as well as exploring suggestions for what 
we can do better.
    With that, I yield the remainder of my time to Dr. Foxx and 
then Congresswoman Mace for their opening statements.
    Chairwoman Maloney. The gentleman yields back.
    I now recognize Dr. Foxx for an opening statement.
    Ms. Foxx. Thank you very much, Madam Chairman, and thanks, 
Ranking Member Comer, for your participation in the hearing 
today.
    As the ranking member stated, the situation regarding 
maternal health is unacceptable and we must work together to 
determine the proper response.
    Historically, data collection on the maternal mortality 
rate in the United States has been incomplete. In order to 
target relief in a manner that can actually affect positive 
outcomes, we need better information.
    Shining a light on the data will, we hope, improve the 
health outcomes of mothers and their newborn children. I look 
forward to hearing from the witnesses today on how we can 
gather better data for better outcomes.
    As the ranking member of the Education and Labor Committee, 
today I hope we can address the impending shortage of OB/GYN 
care providers and the lack of proper education for some in the 
health care industry.
    Currently, the U.S. and Canada have the lowest overall 
supply of midwives and obstetrician/gynecologists, or OB/GYNs, 
relative to comparable countries. There is expected to be a 
shortage of between 3,000 to 9,000 physicians by 2030.
    We must act now to ensure this shortage does not get worse. 
Further exacerbating this problem is a lack of education for 
care providers on early warning signs of life-threatening 
complications. I know many of our witnesses here today are 
working tirelessly to provide best practices for physicians, 
nurses, midwives, and other care providers to ensure these 
preventable deaths do not occur.
    One potential way to address the shortage of caretakers now 
is to use nonphysician clinicians such as midwives, nurse 
practitioners, and physician assistants, especially for low-
risk pregnancies.
    Expanding access to midwife care can improve access to 
maternity care in under resourced areas, reduce interventions 
that contribute to the risk of maternal mortality and 
morbidity, and lower the cost of care.
    Incorporating nonphysician clinicians as part of a health 
care team, led by an OB/GYN, has shown to improve outcomes for 
both the mother and baby.
    Implementing these patient teams and best practices for 
care is something hospitals can start doing right now, which 
can have an immediate impact on lives.
    I look forward to hearing more from our witnesses today 
about solutions we can implement to address this.
    I now yield to Representative Mace for her opening remarks.
    Chairwoman Maloney. I know----
    Ms. Mace. Thank you, Congresswoman.
    Chairwoman Maloney. I now recognize Ms. Mace for an opening 
statement.
    Ms. Mace. Thank you, Chairwoman Maloney and your co-chair, 
this morning, Congresswoman Kelly. I want to thank Ranking 
Member Comer and Dr. Foxx as well.
    I echo the statements of my colleagues this morning. This 
maternal health crisis is unacceptable in our advanced society 
today. It is entirely unacceptable that Black women are nearly 
three times more likely to die during childbirth than white 
women.
    I hope among the many important topics of discussion today 
that we hear about we can address the mental health and 
substance abuse crisis which also afflicts so many mothers out 
there today.
    Opioid use and suicide combined are the leading cause of 
death for mothers in the postpartum period. Data shows that one 
in five women experience maternal mental health conditions. 
About 75 percent of those go undiagnosed and untreated.
    All childbearing women should be educated about and 
screened for postpartum mental health conditions throughout the 
relevant timeframe and have access to quality treatment 
options.
    Personally, with my firstborn, I didn't have postpartum 
mental health issues. But with my second, I experienced those 
firsthand and I cannot imagine for those women that don't have 
the resources or the ability to access health care 
professionals to access those who could provide resources in a 
time of tremendous need. Those are things that we have all got 
to address and I hope will be addressed today.
    Having check-ins and subsequent care before and after 
childbirth are essential to any mother's maternal health for 
that and her child. To the mothers out there who are struggling 
to hold down a job and educate your children at the same time, 
we see you.
    We are working to shine a light on your plight and the 
challenges that you face today. They are real, and we want to 
be there and provide the resources we can at every level--
national, state, and local.
    There are national and local organizations and providers, a 
few of which are represented here today and that we will hear 
from, who are ready and willing to help you.
    Please do not be afraid to reach out for help if you are 
struggling. I also feel it is important to note that this 
maternal health crisis has been further exacerbated by the 
pandemic. I would be remiss if we didn't mention the needs are 
so much more--are so much greater today than they were even 
just a year ago.
    While we won't have hard data on the effect of COVID-19 on 
maternal mortality for some time yet, we know generally that 
opioid use, intimate partner violence, domestic violence, and 
mental health crisis have been exacerbated.
    They have increased exponentially due to the pandemic, due 
to lockdowns, due to children being unable to be at home--I 
mean, be at school and be at home.
    We also know women have borne the brunt of this pandemic 
from job loss to childcare responsibilities. Recent studies 
show that pregnant women and new moms are experiencing anxiety 
and depression at levels three to four times the levels or the 
rate prior to the pandemic.
    This increased stress increases the likelihood of 
pregnancy-related complications. The problem is real. Perhaps 
the only good thing that has come out of this devastating 
pandemic is the increased access to telehealth, the expanded 
telehealth use, which studies have shown improve outcomes for 
pregnant women.
    A recent study from the University of Texas Southwestern 
Medical Center found that prenatal doctor visits conducted over 
the phone or with video technology encouraged more women to 
make and keep their appointments during the pandemic, 
particularly among vulnerable populations, and resulted in 
similar pregnancy outcomes compared with women who were able to 
come in in person.
    The telehealth options should continue to be utilized and, 
perhaps, even expanded, not just now but at a high rate even 
after return to some sense of normalcy post-COVID-19 pandemic.
    What telehealth appointments have shown us that they are 
especially helpful for rural communities and women who are 
unable to get to an appointment in person physically due to 
transit or financial or other limitations to get to a doctor 
for face-to-face check-ins.
    As the number of pre-and post-natal care appointments go 
up, the risk for maternal mortality goes down. I hope today we 
can continue to explore additional innovative options for care 
for these women who are exponentially hurt greater in pregnancy 
and postpartum.
    I want to thank the chairwoman for your time today and I 
yield back.
    Chairwoman Maloney. The gentlelady yields back.
    We have two panels today and our first panel is a member 
panel, so I would like to introduce them first.
    Our first witness today is Congresswoman Ayanna Pressley 
from Massachusetts. Since 2019, Congresswoman Pressley has been 
a powerful voice for equity on this committee.
    She has introduced numerous bills to improve Black maternal 
health outcomes and address structural racism as a public 
health crisis, including the Healthy MOMMIES Act, which, among 
other things, extends Medicaid coverage to birthing people for 
one year postpartum, the COVID-19 Safe Birthing Act, and the 
Anti-Racism in Public Health Act, which would empower the CDC 
to address structural racism in public health.
    We are lucky to have her as a part of our committee and as 
a part of our panel.
    Following her, we have Congresswoman Cori Bush from 
Missouri. She recently shared her story about giving birth as a 
Black woman in America. Like many Black birthing people, 
doctors ignored and dismissed her pain, which led to her son's 
premature birth.
    She has worked in Congress to protect Black maternal health 
and Black babies. She is a strong part of this committee, and 
we thank her for sharing her story with us today.
    We will then hear from Congresswoman Alma Adams from North 
Carolina. Ms. Adams is co-chair of the Black Maternal Health 
Caucus. The caucus has introduced the Black Maternal Momnibus 
Act, a sweeping proposal to comprehensively address the 
country's maternal health crisis.
    She has tirelessly championed policies to systematically 
address Black maternal health, and we thank her for her passion 
and for appearing here today.
    Last but not least, we will hear from Congresswoman Lauren 
Underwood from Illinois. She is the other co-chair of the Black 
Maternal health Caucus and has led efforts to pass the Momnibus 
and comprehensively address every dimension of the Black 
maternal health crisis.
    She has been a bold leader for a more equitable America 
since she first set foot in Congress.
    I want to thank all of them for their extraordinary work. 
We are all deeply grateful for their leadership.
    Without objection, your written statements will be made 
part of the record, and with that, Congresswoman Pressley, you 
are now recognized for your testimony.

 STATEMENT OF HON. AYANNA PRESSLEY, REPRESENTATIVE, CONGRESS, 
                         MASSACHUSETTS

    Ms. Pressley. Thank you, Madam Chair. This hearing is 
historic, and I am honored to participate alongside my sisters 
in service, my colleagues who are committed to achieving 
maternal health justice.
    Today, we will likely hear a consistent drumbeat of 
sobering statistics which underscore the often life-
threatening, too often fatal experience of birthing while 
Black.
    Now, while some may be tired of hearing these alarming data 
points, they should know that Black people are tired of living 
them, and more accurately, tired of losing loved ones.
    My paternal grandmother, who I never had the blessing to 
know, died in the 1950's giving birth to my father's youngest 
brother, sending my father and his five siblings into a 
downward spiral of great trauma and hardship.
    And decades later, the Black maternal mortality crisis is 
still killing our loved ones and destabilizing our families. My 
family's history is not unfamiliar for many Black folks who 
have heard mothers, grandmothers, aunties, and partners recount 
tragic losses or their own harrowing birth experiences.
    Black people have been vocal about this pain, but that pain 
has fallen on deaf ears or been delegitimized for generations. 
It is now incumbent upon this body to hear this Black pain and 
to legislate solutions.
    Today, in partnership with Senator Booker, we reintroduced 
our MOMMIES Act, which would ensure that every state allows 
Medicaid-eligible pregnant people to remain covered for at 
least a full year postpartum, and this coverage is 
comprehensive and not limited to arbitrarily selected 
pregnancy-related services. We are demanding the type of 
responsible accessible person-centered care that is required to 
save lives.
    This bill would also mandate the collection of critical 
information on the coverage of and barriers to receiving doula 
services. One bill alone will not end this crisis. That is why 
I am proud to support the Black Maternal Health Momnibus Act of 
2021, which includes my legislation to provide care and dignity 
for pregnant people in the criminal legal system.
    The Justice for Incarcerated Moms Act would end the 
practice of shackling people who are pregnant, an 
unconscionable practice, fund diversion programs as 
alternatives to incarceration, and create maternal health 
initiatives for pregnant people behind the wall, including 
access to doulas, healthy food and nutrition, mental health and 
substance use counseling.
    These bills were developed in close partnership with Black 
women who are leaders in maternal and reproductive health care.
    I testify today not to remind Black people of our plight, 
but instead, to demand the action and the meaningful change 
that we deserve. The policy is ready.
    What we need now is a commitment from our colleagues that 
Black maternal health, that Black mamas, that Black babies, 
that Black lives are, indeed, a priority.
    Birthing while Black should not be a death sentence, and if 
we believe in health care justice, as we espouse that we do, 
then we should legislate like it.
    Thank you. I yield.
    Chairwoman Maloney. Thank you.
    Congresswoman Bush is here in person and we now recognize 
your testimony.

STATEMENT OF HON. CORI BUSH, REPRESENTATIVE, CONGRESS, MISSOURI

    Ms. Bush. Thank you.
    First of all, let me just say that I think it is disgusting 
that we have colleagues on this hearing who won't acknowledge 
Black women suffering, that there are stark differences in our 
pain.
    But St. Louis and I thank you, Chairwoman Maloney and 
Congresswoman Kelly, for your leadership in convening this all-
important hearing. It is an honor to join my sisters in 
service--Congresswomen Pressley, Underwood and Adams--as part 
of today's panel.
    I sit here before you as a mother, a single mother of two. 
Zion, my eldest child, was born at 23 weeks gestation versus 
what is considered a normal pregnancy of 40 weeks. When I was 
early in my pregnancy with him, I didn't think that there could 
even be a possibility that there could be a complication.
    I became sick during my pregnancy. I had hyperemesis 
gravidarum, which was severe nausea and vomiting. I was 
constantly throwing up for the first four months of my 
pregnancy.
    Around five months, I went to see my doctor for a routine 
prenatal visit. As I was sitting in the doctor's office, I 
noticed a picture on the wall that said, if you feel like 
something is wrong, something is wrong. Tell your doctor.
    I felt like something was wrong so I--so that is what I 
did. I told my doctor. I told her that I was having severe 
pains, and she said, oh no, you are fine. You are fine. Go 
home, and I will see you next time.
    So, that is what I did. I went home. One week later, I went 
into preterm labor. At 23 weeks, my son was born one pound, 
three ounces. His ears were still in his head. His eyes were 
still fused shut. His fingers were smaller than rice and his 
skin was translucent. A Black baby, translucent skin. You could 
see his lungs. He could fit within the palm of my hand. He 
was--we were told he had a zero percent chance of life.
    The chief of neonatal surgery happened to be in the 
hospital that morning and saw my case on the surgical board and 
she decided to try to resuscitate him. It worked, and for the 
first month of his life as Zion was on a ventilator fighting to 
live, for four months he was in the neonatal care unit. The 
doctor who delivered my son apologized. She said, ``You were 
right and I didn't listen to you. Give me another chance.''
    Two months later, I was pregnant again. So, I went back to 
her. At 16 weeks I went for an ultrasound at the clinic and saw 
a different doctor who was working that day. I found out again 
I was in preterm labor.
    The doctor told me that the baby was going to abort. I 
said, no, you have to do something. But he was adamant. He 
said, ``Just go home. Let it abort. You can get pregnant again 
because that is what you people do.''
    My sister, Kelly, was with me. We didn't know what to do 
after the doctor left. So, we saw a chair sitting in the 
hallway. My sister picked up the chair and she threw it down 
the hallway. Nurses came running from everywhere to see what 
was wrong.
    A nurse called my doctor and she put me on a stretcher. The 
next morning my doctor came in and placed a cerclage on my 
uterus and I was able to carry my baby, my daughter, my angel, 
who is now 20 years old. My son who was saved is now 21 years 
old.
    This is what desperation looks like, that chair flying down 
a hallway. This is what being your own advocate looks like. 
Every day Black women are subjected to harsh and racist 
treatment during pregnancy and childbirth. Every day Black 
women die because the system denies our humanity. It denies us 
patient care.
    I sit before you today as a single mom, as a nurse, as an 
activist, and as a Congresswoman, and I am committed to doing 
the absolute most to protect Black mothers, to protect Black 
babies, to protect Black birthing people, and to save lives.
    Thank you, and I yield back.
    Chairwoman Maloney. Thank you for your very moving 
testimony.
    Congresswoman Adams, you are now recognized for your--for 
your testimony.
    Congresswoman Alma Adams?

    STATEMENT OF HON. ALMA S. ADAMS, PH.D., REPRESENTATIVE, 
   CONGRESS, NORTH CAROLINA, CO-CHAIR, BLACK MATERNAL HEALTH 
                             CAUCUS

    Ms. Adams. Thank you, Madam Chair, Chairwoman Maloney, 
Ranking Member Comer, Congresswoman Kelly, and to other 
distinguished colleagues serving on the Oversight Committee.
    Thank you for the opportunity to join you today for this 
historic hearing in the House Oversight Committee on maternal 
mortality and the disparate and unacceptable outcomes that 
Black women and birthing persons face.
    As the founder and co-chair of the Black Maternal Health 
Caucus, I want to just take time to speak about the Black 
maternal health crisis in America. Black mamas are 
disproportionately and needlessly dying.
    The U.S. is one of 13 countries in the world where the rate 
of maternal mortality is worse than it was 25 years ago, and 
even more disturbing is that across the country Black women 
from all walks of life, regardless of socioeconomic status and 
education, are dying from preventable pregnancy-related 
complications at three to four times the rate of non-Hispanic 
by women.
    And the shocking fact is that 60 percent of maternal deaths 
are preventable. Research also suggests that the cumulative 
stress of racism and sexism undermines Black women's health, 
making them more vulnerable to complications that endanger 
their lives and the lives of their infants.
    Unfortunately, current healthcare practices are 
insufficient in addressing the health consequences of living 
with this stress. In fact, the healthcare system often fails 
Black women, providing inadequate and culturally insensitive 
care that is plagued by bias, racism, and discrimination.
    This crisis demands urgent attention and serious action to 
save the lives of Black mothers and women of color and other 
marginalized women across the country, which is why 
Congresswoman Underwood and I crafted and introduced a 
comprehensive package of nine bills called the Black Maternal 
Health Momnibus Act, and this February we introduced an updated 
package of 12 bills with Senator Cory Booker.
    You know, the Momnibus will comprehensively address every 
dimension of the maternal health crisis in America to save 
lives and end racial and ethnic disparities in maternal health 
outcomes.
    The bill makes investments in social determinants of 
health, increasing maternal vaccinations, improving our 
national response to pandemics with respect to maternity care, 
the growth and the diversification of the perinatal work force, 
improvements in data collection and quality measures, digital 
tools like telehealth and innovative payment models.
    It focuses on environmental justice, because recent studies 
have reinforced the linkage between man-made climate change and 
the toll that it takes on pregnant women and their infants.
    And very importantly, the Momnibus provides critical 
funding for community-based organizations, perinatal workers, 
doulas, and midwives, and lactation consultants who are doing 
the work right now to save Black mamas and babies, especially 
in communities of color.
    We know the solutions that our communities need, and I am 
fighting hard every day in Congress to speak up and stand up to 
make sure that my colleagues understand what Black women need 
and what they must have.
    The Momnibus is a bold and compassionate solution that 
unequivocally says Black mamas matter. That is why I am calling 
today for the Momnibus to be included in the American Families 
Plan, which is a once in a generation investment in health--
healthcare and education and childcare.
    Inclusion of the Momnibus would build on the Biden's 
administration American Rescue Plan, a bold and compassionate 
relief bill that included a provision to extend Medicaid 
coverage for up to 12 months.
    In 1962, Malcolm X said that the most disrespected person 
in American is the Black woman. The most unprotected person in 
America is the Black woman. The most neglected person in 
America is the Black woman.
    Sadly, that continues to be true and evident in the health 
and economic outcomes that we continue to face. The pandemic 
has revealed these disparities all too well and it has further 
exacerbated them.
    In 1966, Martin Luther King declared of all other forms of 
inequality and injustice, injustice in healthcare is the most 
shocking and most inhumane.
    Including the Momnibus in the American Families Plan is a 
key way to address long-standing health injustices and to 
ensure that our moms and our babies have the resources they 
need to not only survive, but to thrive.
    It doesn't matter what side of the aisle you are on. Either 
you have a mother or you are a mother or you know women who are 
moms. If we raise the tide for Black women who are who are 
among the most marginalized and the most vulnerable, we 
ultimately raise the tide for all women.
    All moms deserve equal access to quality maternal care 
without bias. Passing the Momnibus, we can begin to take action 
now to truly hold ourselves, our health systems, and our 
society accountable.
    I urge my colleagues to support the Momnibus. Our Black 
women and our mamas deserve better. I yield back, Madam Chair. 
Thank you so very, very much.
    Chairwoman Maloney. Thank you for your important leadership 
on this issue.
    Congresswoman Underwood, you are now recognized for your 
testimony.
    Congresswoman Underwood?

 STATEMENT OF HON. LAUREN UNDERWOOD, REPRESENTATIVE, CONGRESS, 
        ILLINOIS, CO-CHAIR, BLACK MATERNAL HEALTH CAUCUS

    Ms. Underwood. Chairwoman Maloney, Ranking Member Comer, 
and members of this committee, thank you for holding this 
hearing on the urgent topic of Black maternal health.
    Two years ago this month, I joined Congresswoman Alma Adams 
to co-found the Black Maternal Health Caucus, a bipartisan 
group of 115 members united in our commitment to ending our 
Nation's maternal mortality crisis.
    My colleagues have shared the alarming statistics about 
maternal health outcomes in the United States, and behind every 
one of these statistics is a story, stories like my friend, 
Shalon.
    Dr. Shalon Irving was a graduate school classmate of mine 
at Johns Hopkins University. She went on to become a lieutenant 
commander in the U.S. Public Health Service Commission Corps, 
utilizing her dual Ph.D.
    She was also a CDC epidemiologist. She was a talented 
photographer, a chef, an author. She traveled the world and she 
was so excited to become a mom.
    But we still lost her. Three weeks after giving birth to 
her beautiful daughter, Soleil, Shalon died due to 
complications from her pregnancy. I couldn't believe it. But 
while Shalon's story is devastating, it is not unique. Too many 
families have stories of their own of loss or near misses.
    It was with these stories in my heart that my team and I 
committed to developing a comprehensive set of data-driven 
evidence-based policies that would build on existing 
legislation to address every driver of maternal mortality, 
morbidity, and disparities in the United States.
    The result was the Black Maternal Health Momnibus Act, 
which I introduced with Congresswoman Adams and then Senator, 
now Vice President Kamala Harris in March 2020.
    This Congress, I reintroduced the Momnibus with Senator 
Cory Booker, and now more than 140 co-sponsors between the 
House and Senate, including many members of this committee.
    The Momnibus has wide support, including Speaker Pelosi who 
said last month that we, quote, ``Must pass the Momnibus.''
    The Momnibus is a suite of 12 bills that include bipartisan 
policies to save lives, end racial and ethnic disparities, and 
achieve true equity and justice for all mothers and birthing 
people.
    As the Congress considers proposals for the American 
Families Plan, I urge my colleagues to support the policies in 
the Momnibus, which are even more important in response to a 
pandemic that has both underscored and intensified the need to 
make robust investments in high-quality care.
    At the heart of these investments is the principle that in 
America every family has the right to thrive, a principle that 
begins with a safe and healthy pregnancy and birth.
    To realize this promise for every mother, the Momnibus 
includes investments in community-based organizations, funding 
to grow and diversify the perinatal work force, data collection 
improvements, expanded access to maternal mental health care, 
and programs to address social determinants of health, like 
housing, nutrition, and environmental risks.
    These are necessary investments that will save lives and 
support families.
    I look forward to working with my colleagues to get the 
Black Maternal Health Momnibus Act included in the American 
Families Plan and signed into law.
    We don't have any time to wait. Our moms are worth it. Our 
families depend on it and this moment demands it. Thank you, 
and I yield back.
    Chairwoman Maloney. Thank you for your powerful testimony 
and for your continued leadership on this critically important 
issue.
    The first panel is now excused and we will pause for a 
moment while we get the second panel ready.
    [Pause.]
    Chairwoman Maloney. Now I would like to recognize my co-
chair for this hearing, Congresswoman Kelly, to introduce the 
witnesses on our second panel.
    Congresswoman Kelly?
    Ms. Kelly. [Presiding.] Thank you again, Madam Chair.
    Our expert witnesses today have all seen or felt the tragic 
impact of our Nation's Black maternal health crisis up close.
    Tatyana Ali is an actress, advocate, and mother who 
confronted the consequences of systemic racism during her own 
2016 delivery of her first son. She was left traumatized and 
feeling alone at the questionable decisions and missteps by her 
health care providers, culminated in an emergency C-section, an 
outcome that unnecessarily put her life at risk and was 
entirely divorced from her original birth plan.
    Charles Johnson is the founder of the maternal health 
advocacy organization 4Kira4Moms. Mr. Johnson's wife, Kira, was 
an extraordinarily accomplished woman in perfect health when 
her planned C-section resulted in severe internal hemorrhaging.
    Charles and Kira's pleas for help were ignored by hospital 
staff for 12 hours while her abdomen filled with blood. She 
died only 12 hours after giving birth.
    Dr. Veronica Gillispie is a board-certified obstetrician 
and gynecologist, an associate professor for Oschner Health in 
New Orleans, Louisiana, and the medical director at the 
Louisiana Perinatal Quality Collaborative and Pregnancy 
Associated Mortality Review for the Louisiana Department of 
Health. She leads initiatives to improve birth outcomes for all 
birthing persons in Louisiana and eliminate health disparities.
    Dr. Joia Crear-Perry is the founder and president of the 
National Birth Equity Collaborative, which focuses on creating 
solutions that optimize Black maternal and infant health 
through training, policy advocacy, research, and community-
centered collaboration. She is a mother, OB/GYN, activist, and 
thought leader around racism as a root cause of health 
inequalities.
    Dr. Jamila Taylor is the director of healthcare reform and 
senior fellow at the Century Foundation where she leads TCS 
work to expand access to affordable health care by focusing on 
the structural barriers to access to health care, and the 
racial and gender disparities in health outcomes.
    And Dr. Tamika Auguste, who serves on the board of 
directors for the American College of Obstetricians and 
Gynecologists. Dr. Auguste is a practicing OB/GYN at MedStar 
Washington Hospital Center and a renowned physician expert on 
issues of Black maternal and infant health.
    I want to thank all of our witnesses for joining us today.
    Ms. Ali, you are now recognized for five minutes for your 
opening statement.

         STATEMENT OF TATYANA ALI, ACTRESS AND ADVOCATE

    Ms. Ali. Thank you for inviting me to share my story. I 
hope I can honor the mamas and babies who are no longer with 
us.
    I had a very healthy pregnancy, and when it came time I was 
laboring and dilating normally. When my husband and I got to 
the hospital, it was like we were on a clock that kept very 
close track of the hours.
    I remember them trying to get me to take an epidural though 
it wasn't in my birth plan, interrupting me again and again in 
the midst of my labor pains, making it seem imperative until, 
finally, we relented.
    I wanted to get onto my hands and knees to push because I 
could still feel my legs. But every time I tried, five of the 
10 people in the room, all screaming at me at the top of their 
lungs, would push me back down. They pinned me down by my feet.
    I could feel my baby's wet hair because he had been crowned 
for hours. One doctor climbed up onto the side of the bed and 
pushed his forearm into my belly and squeezed downward, like my 
baby was two-faced. I could still feel the pain days later.
    Then when my husband and I yelled no to the forceps, they 
use suction, a plunger. I screamed stop because they were 
aggressively popping it off of his head again and again four 
times. Then, without warning, one doctor pushed my baby all the 
way back inside me. I screamed in pain. My body started shaking 
uncontrollably. Then I lost consciousness.
    When I woke I heard my baby cry. That is our baby, I told 
my husband. Don't let them hurt him. Go. Go and get him and he 
went, and then I went unconscious again.
    I remember the warmth that washed over me when I finally 
got to hold him. I remember two nurses in particular in the 
maternity ward who were kind and gentle with me.
    He spent four days in the NICU. The head pediatric 
urologist explained to us that it would take time for our baby 
to urinate on his own because of the traumatic nature of his 
birth, and our prayers were answered when he did and we could 
leave.
    When we found out we were pregnant again, we vowed to find 
another way. The first time we met our midwife I felt like I 
had met her before. She is a brilliant Black woman with a 
beautiful smile. Her laugh reminds me of my very own cousin, 
Valerie. I remember her spending hours with us visiting in our 
home, helping my eldest as he was just learning to walk up the 
stairs on his own.
    I remember her asking for permission every time she touched 
my belly and never used a speculum or did an intervaginal check 
like my OB/GYN did at every appointment.
    We decided to have a home birth VBAC. She gave us choices 
and was a reservoir of information, never too busy to take a 
call or answer a text. Last minute, my youngest changed his 
position and went lateral so I had to have another C-section. 
But we had planned so thoroughly that we knew exactly which 
hospital would respect our team.
    When I broke down weeping after the anesthesiologist said I 
would feel nothing from the chest down again, my midwife prayed 
while she held my feet. My midwife knew my story and prepared 
me for the time when the trauma of my first birth might return, 
and she also knows that I believe in prayer. She knew me that 
well.
    She suggested that I walk into the OR instead of being put 
on a gurney in order to feel a sense of agency and autonomy 
that had been taken from me previously. I got to hold my 
youngest right after he entered the world and he latched right 
away.
    During postpartum visits with our midwife, she provided 
lactation support. She checked in on my baby's growth, my 
physical wellness, my nutrition, my mental and emotional well 
being, and how we were adjusting as a family.
    Both of my babies were born via C-section, but the 
experiences could not have been more diametrically opposed. My 
eldest and I were not safe. My youngest and I, cared for by a 
Black midwife, were. The birth of my oldest was my first 
experience of a kind of institutionalized racism and 
paternalism that can kill.
    Throughout my advocacy efforts, I have heard firsthand 
stories of people in pain being dismissed, threatened, called 
drug seeking. I have heard stories of the sheriff's department 
coming to homes in the middle of the night because families 
refused to take elective tests.
    I have heard stories of Child Services being called moments 
after babies are born because the parents seem unfit. The 
similarities amongst Black families and the treatment and 
similar outcomes for indigenous families and queer families and 
disabled families and incarcerated birthing people are stunning 
and they all have similar root causes.
    We are being mishandled, ignored, sterilized, and 
completely disrespected. Many are now scared to start families 
because they know we are dying in hospitals. There are groups 
on the ground providing the support that we need, but they need 
the resources to scale their efforts.
    We need more Black midwives, Black doulas, culturally 
competent birth workers, and they need to be supported in their 
work. They need to be covered by all health plans so that 
adequate care ceases to be a luxury. We need to demedicalize 
birth.
    We need redress with hospitals that fail us so completely. 
We need racial bias and trauma training, postpartum and 
lactation support. We need to be heard and believed. All 
pregnant and birthing people deserve to be treated with loving 
patient-centered care.
    Thank you for this time.
    Ms. Kelly. Thank you so much, Ms. Ali.
    And now we will turn to Mr. Johnson. You are now recognized 
for your testimony.

   STATEMENT OF CHARLES JOHNSON, HUSBAND OF KIRA JOHNSON AND 
                     FOUNDER OF 4KIRA4MOMS

    Mr. Johnson. We are going to jump right into it.
    I was fortunate enough to meet a woman that absolutely 
changed my life, and so when we talk about my wife, Kira, we 
are talking about truly sunshine personified. We are talking 
about a woman who raced cars, who ran marathons, who spoke five 
languages fluently, and really challenged me to be a better man 
in every single aspect of my life.
    I have always wanted to be a father, and so I was ecstatic 
when we found out. We welcomed our second son, Charles the V in 
September 2014, and Kira and I always talked about how cool it 
would be to have back to back boys. They would grow up, just 
being rambunctious, best friends. And so we were absolutely 
over the moon when we found out we were welcoming our second 
son, Langston, in April 2016.
    And the painful irony of what I am going to share with you 
this afternoon is that as a father and as a husband, you want 
the best for your family. You want the best for your wife.
    And so we made the decision to give birth at Cedar Sinai 
Medical Center in Los Angeles, California, because it was our 
understanding that this hospital had what was supposed to be a 
sterling reputation, particularly in the area of obstetrics and 
delivery.
    And so on April 12 of 2016, we walked into Cedar Sinai 
Hospital in Los Angeles for what we expected to be the happiest 
day of our lives and walked straight into a nightmare.
    It is important to understand that throughout Kira's entire 
pregnancy she was not only in good health, Madam Chairwoman, 
she was in exceptional health. All signs pointed to both her 
and our new son, Langston, being extremely healthy.
    And so at our doctor's recommendation we went in for what 
was supposed to be a routine scheduled C-section. Langston was 
born perfectly healthy, 10 fingers, 10 toes, and we were just 
overwhelmed with joy welcoming this tremendous gift into our 
lives.
    Shortly after birth, we were taken back to recovery, which 
is standard in a Cesarean delivery, and as we were there in the 
recovery room, and Kira is resting and I am watching her rest, 
and Langston is in what I called a little toaster, the little 
incubator thing, and I am just soaking all of this in, all the 
pride of being a father for the second time and our family was 
finally complete.
    And then things began to take a turn for the worse. As I am 
sitting there watching Kira rest, I look and I see by her 
bedside the catheter coming from her bedside begin to turn pink 
with blood. Now, keep in mind, this is around 4 o'clock in the 
afternoon and so I brought it to the attention of the doctors 
and the staff at Cedars Sinai.
    They came and they examined Kira physically. They took her 
vitals, they drew blood, and they did an ultrasound, and very 
early on they can see that her abdomen is beginning to fill 
with fluid. And very quickly they ordered a CT scan that was 
supposed to be performed stat and by stat, for everybody on the 
committee, what does that mean to you all? Immediately.
    Five o'clock came, no CT scan. Six o'clock came. Seven 
o'clock came, no scan. By 7 o'clock, my wife is shivering 
uncontrollably because she is losing so much blood. Eight 
o'clock comes, no scan. I am begging and pleading, please do 
something. Help her. Nine o'clock, nothing.
    At around 9 o'clock, I pulled a nurse aside and I asked 
her, please help me. My wife isn't doing well. She is weak. She 
is in pain. She is losing color. Please help me. And she 
responded to me, sir, your wife just isn't a priority right 
now. Your wife isn't a priority.
    Ten o'clock came. Eleven o'clock came. It wasn't until 
after 12:30 a.m. that they finally made the decision to take 
Kira back for surgery. When they took Kira back to surgery and 
they opened her up, there were three and a half liters of blood 
in my wife's abdomen from where she had been allowed to bleed 
and suffer needlessly. For 10 hours while myself and my family 
begged and pleaded for them simply to just help us, and our 
cries for help fell on deaf ears.
    And as I said when I was here in 2018 in support of the 
Preventing Maternal Deaths Act, I am going to say it again, you 
are going to hear from brilliant people, many of whom I look up 
to tremendously. They are going to tell you about the 
statistics.
    But there is no statistic that can quantify for what it is 
like to tell an 18-month-old that his mommy's never coming 
home. There is no point on your data collection that can begin 
to measure the impact of what it is like to try and explain to 
a son that will never know his mother just how amazing she is.
    And what I want to say is this. I am going to share with 
this committee a harsh truth, and that truth is for all the 
wonderful work that you are doing you cannot legislate 
compassion. You cannot legislate compassion, and it was lack of 
compassion and lack of humanity that failed my wife and is 
failing Black mothers time and time again.
    It was not my wife's race that was a risk factor. She did 
everything right. It was racism. That was the risk factor. And 
so we must do better, and while you cannot legislate compassion 
and humanity, what you can do is you can take bold steps like 
the Momnibus Bill to invest in community-based care models.
    You can make sure that every woman in this country that 
wants access to a doula has it. You can make sure that we 
diversify the perinatal work force. You can make sure that 
women have the resources that they need to thrive and survive 
before, after, and during childbirth.
    And as we approach Mother's Day, my heart is heavy as I sit 
here representing the thousands upon thousands of families that 
have been impacted.
    And so, Madam Chairwoman, let me share with you on behalf 
of those families what our expectation is, what my expectation 
is, of this committee, of this Congress, and of our leadership.
    My expectation is that this committee will come together in 
a bold bipartisan fashion to stand in solidarity and sound--and 
send a loud definitive message that mothers and babies and 
Black birth and people are important and will make the 
investments and legislate as such.
    What I will share with you is this in closing. These are my 
sons, Charles and Langston. My wife, Kira, won't wake up to 
breakfast in bed this Mother's Day because she gave birth in a 
country that didn't see her, that didn't value her. We must do 
better.
    This is Amber Rose Isaac. Her son, Elias, won't have the 
chance to spend his first Mother's Day with his mother. Elias 
deserves better.
    Shamony Gibson should be here with her son, Khari, and her 
daughter, Anari. She deserves so much better.
    Tahmesha Dickey should be here this Mother's Day with her 
son, Muhsin. She deserved better.
    Tamara Johnson Thompson should be here--should be here with 
our daughter, Ryan Rose.
    Dr. Shalon Irving should be here with her daughter, Soleil. 
Precious Triplett Strokes should be here with her son, Jacob.
    Yolanda Kadima, a doula--a doula--should be here with 
Jamayla, Zaden, Armand, Alanna, Zaire, Qashar, Shivran and 
Yavin, her eight children, this Mother's Day.
    I refuse to allow my children, these children, and the 
children and families affected by this maternal crisis--
maternal health care crisis to inherit a world where they fear 
that their wives or that their selves may meet the same fate as 
their mothers. We must and we can do better.
    Thank you for your time.
    Ms. Kelly. Thank you so much for sharing your words and 
your testimony. We really appreciate it.
    Dr. Auguste, you are now recognized for your five minutes 
of testimony. Thank you.

    STATEMENT OF TAMIKA AUGUSTE, M.D., BOARD OF DIRECTORS, 
AMEREICAN COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS; CHAIR OF 
 THE OBSTETRICIAN AND GYNECOLOGIST CLINICAL PRACTICE COUNCIL, 
                         MEDSTAR HEALTH

    Dr. Auguste. Thank you.
    Good afternoon, Chairwoman Maloney, Chairwoman Kelly, 
Ranking Member Comer, and members of the House Oversight and 
Reform Committee. Thank you for inviting me to speak with you 
today on behalf of the American College of Obstetricians and 
Gynecologists, or ACOG.
    It is an honor to join this esteemed panel. As an 
obstetrician/gynecologist practicing in Washington, DC, I have 
dedicated my career to ensuring patients have happy and healthy 
pregnancies and births.
    I currently serve as a member of ACOG's board of directors 
and as vice chair of the Council on Patient Safety and Women's 
Health, an effort convened by ACOG to improve patient safety, 
promote equity, and drive culture change in women's health 
care.
    Confronting our Nation's rising maternal mortality rate, 
which disproportionately impacts Black and indigenous women, is 
one of ACOG's paramount priorities. ACOG recognizes its 
position as the leading medical organization dedicated to 
women's health and treats this responsibility with reverence 
and humility.
    We also recognize the need and are committed to changing 
the culture of medicine, eliminating racism, and racial 
inequities that leads to disparate health outcomes, and 
promoting equity in women's health and health care.
    As members of the committee are aware, the U.S. is the only 
industrialized nation with a maternal mortality rate that is on 
the rise, with unacceptably high rates among Black and 
indigenous birthing people.
    Additionally, data indicates that the COVID-19 pandemic is 
disproportionately affecting communities of color, and maternal 
health experts caution that it may be exacerbating the maternal 
mortality crisis.
    This is a multi-factorial crisis that requires multi-
factorial solutions. The list of programs and initiatives 
critical to improving Black maternal health is long. In the 
interest of time, I will highlight only some of the evidence-
based quality improvement programs that are helping us make 
progress in moving the needle.
    In order to fully confront this crisis, we must recognize 
that race is a social construct, not biologically based, and 
that racism, not race, impacts healthcare, health, and health 
outcomes.
    Systemic and institutional racism are pervasive in our 
country and in our country's healthcare institutions, including 
the fields of obstetrics and gynecology.
    We must invest in quality improvement initiatives that 
standardize care and improve the provision of respectful and 
culturally congruent care. We must increase the access to care, 
including telehealth in rural communities.
    We must address social determinants of health and we must 
ensure that all pregnant, birthing, and postpartum people have 
access to the care they need.
    One initiative key to this work is the Alliance for 
Innovation on Maternal Health, or AIM program. AIM provides 
technical assistance, capacity building, and data support for 
the adoption of evidence-based patient safety practices, or 
bundles, which address issues like obstetric hemorrhage, 
hypertension, and safe reduction of primary Cesarean birth.
    Ongoing work of AIM includes the development of a new 
bundle on cardiac conditions and incorporating equitable and 
respectful patient care into each of the existing bundles.
    Continued investment in this program is necessary to 
achieve implementation of patient safety bundles in every 
birthing facility across the country. Perinatal Quality 
Collaborative and Maternal Mortality Review Committees also 
play an important role in improving maternal health outcomes.
    Together, the AIM Program, Perinatal Quality collaborative, 
and Maternal Mortality Review Committees make up an 
infrastructure key to our efforts to promote high-quality 
respectful care and eliminate preventable maternal mortality 
and inequities in outcomes.
    To simplify, Maternal Mortality Review Committees make 
recommendations for preventing maternal deaths. The AIM program 
provides tools and resources and the Perinatal Quality 
Collaboratives provide the networks to facilitate system wide 
implementation of these best practices.
    Last, I would like to emphasize the critical need to close 
the postpartum coverage gap in Medicaid. Medicaid covers nearly 
half of births nationwide and we see alarming postpartum 
coverage gaps in both expansion and nonexpansion states.
    As we learn more about the timing of maternal death, it is 
clear that continuous coverage of people who rely on Medicaid 
is critical to confronting this crisis. We urge Congress to do 
more to incentivize every state to provide 12 months of 
continuous postpartum coverage in Medicaid.
    I am heartbroken every time I see a Black patient who comes 
to me for prenatal care, and says, Doc, please just let me die. 
This happens far too often.
    No one should have to experience this type of fear. In the 
most highly resourced country in the world, people should not 
be dying from what should be the happiest times of their lives.
    Thank you for the opportunity to be part of this urgent 
conversation and to help inform the critical work ahead to end 
preventable maternal deaths and improve Black maternal health.
    Ms. Kelly. Thank you so much, Dr. Auguste, for your 
testimony.
    We will now hear from Dr. Gillispie. You are now recognized 
for five minutes for your testimony.

   STATEMENT OF VERONICA GILLISPIE-BELL, M.D., FACOG, M.S., 
  MEDICAL DIRECTOR, LOUISIANA PERINATAL QUALITY COLLABORATIVE

    Dr. Gillispie-Bell. Thank you.
    Madam Chairwoman Maloney, Co-Chairwoman Kelly, Ranking 
Member Comer, and members of the Committee on Oversight and 
Reform, thank you for inviting me to testify and give my 
perspective on America's Black maternal health crisis. It is 
truly an honor.
    I am Dr. Veronica Gillispie-Bell. Today, I bring forth my 
knowledge as an OB/GYN who has practiced in New Orleans for the 
last 13 years. I also bring the perspective as the medical 
director of the Louisiana Pregnancy-Associated Mortality Review 
and of the Perinatal Quality Collaborative, and finally, the 
perspective as a Black mama.
    I bring this knowledge, but I am here today to be the voice 
of my Black patients, of my Black families. Do you know what it 
is like to have someone look you in your eyes with fear in 
theirs and ask, Dr. Gillispie, if you are not there when I give 
birth, am I going to die?
    Our Black persons are afraid and they have every right to 
be, when 700 mothers, wives, sisters, daughters are lost in 
childbirth every year, when our chance of dying is three to 
four times that of our white counterparts.
    And as you have heard today, it doesn't matter if we are 
rich or poor, if we are sick or well, if we are educated or 
not. The chance we will experience a severe maternal morbidity 
or a death is increased by one factor, race. And for those who 
think that being Black is the problem, let me be crystal clear.
    Race is a social construct, not a biological condition. 
Four hundred years of systemic racism has created a world where 
we, as Black women, are two steps behind before we even emerge 
from the womb. False narratives have shaped biases that have 
led to inequities in the care that we receive.
    But I came today to not only discuss the problem but also 
the solutions. We need congressional support for state 
Perinatal Quality Collaboratives. The Louisiana Perinatal 
Quality Collaborative, by using improvement science to 
implement equitable care delivery processes in birthing 
facilities, has seen a 35 percent reduction in severe maternal 
morbidity related to hemorrhage, a 49 percent reduction in our 
Black birthing persons, and a 12 percent reduction in severe 
maternal morbidity related to hypertension.
    Evidence-based patient safety bundles like the AIM bundles 
tell us what to do. Improvement science tells us how to do it. 
It takes 17 years for evidence-based medicine to be implemented 
at the bedside without improvement science. With the 
improvement science, it takes only three years.
    We need state Perinatal Quality Collaboratives to help 
teach our birthing facilities the how. We need congressional 
support for state Maternal Mortality Review Committees. Through 
the Louisiana Pregnancy-Associated Mortality Review Committee, 
we review all maternal deaths to quantify the drivers of 
maternal mortality.
    This data is used to drive improvement. Funding is needed 
to secure the resources of time and people to support these 
committees in every state so they are able to locally identify 
the drivers of maternal mortality.
    We need congressional support to ensure the extension of 
Medicaid postpartum coverage to one year. The year after birth 
is a crucial critical time to optimize medical conditions and 
provide an opportunity for family planning.
    Through the American Rescue Plan Act, Congress took an 
important step to incentivize states to extend postpartum 
Medicaid coverage to 12 months after the end of pregnancy. Even 
with those incentives, not all states will choose to extend 
Medicaid.
    We need to ensure all Medicaid individuals have coverage 
through the critical postpartum period. We need congressional 
support for systems that ensure pregnant women receive the 
appropriate level of care based on the complexity and the 
acuity of their medical issues.
    The American College of Obstetricians and Gynecologists and 
the Society for Maternal Fetal Medicine have established a 
classification system that standardizes the maternity facility 
capabilities and personnel to facilitate patients receiving 
risk-appropriate maternal care.
    Not all states have adopted this system. As I have led the 
work to adopting this system in Louisiana, it is also apparent 
that states will need resources to meet these requirements, 
especially for hospitals in smaller and more rural communities.
    We need congressional support for infrastructure to ensure 
telehealth is available to all. The benefits of telehealth with 
remote home-monitoring devices are well noted in the obstetric 
population.
    Through our Connected Mom program at Oschner, I have 
diagnosed someone with preeclampsia with severe features 
between her regularly scheduled visits because she was able to 
take her blood pressure more frequently than in traditional 
care.
    Telehealth has the potential to really improve outcomes, 
but it also has a potential to exacerbate barriers if we do not 
address infrastructure and access to home broadband.
    We need to create and support programs to increase 
diversity within the physician work force, such as the Summer 
Health Professions Education Program. I am the result of that 
program when it was called the Minority Medical Education 
Program. We must support the development of minorities with a 
desire to pursue careers in healthcare.
    I would like to thank you for the opportunity to share my 
perspective on the causes and solutions for the Black maternal 
health crisis, and I want to leave you with one thought.
    Privilege should not be the gateway to equitable safe care. 
It is a right of everyone and our Black mothers deserve better 
and we can be better.
    Thank you so much.
    Ms. Kelly. Thank you so very much, Dr. Gillispie, for your 
powerful testimony.
    Now I would like to introduce Dr. Crear-Perry. You are now 
recognized for your testimony for five minutes.
    Thank you.

 STATEMENT OF JOIA ADELE CREAR-PERRY, M.D., FACOG, FOUNDER AND 
         PRESIDENT, NATIONAL BIRTH EQUITY COLLABORATIVE

    Dr. Crear-Perry. Good afternoon, Chairwoman Maloney, 
Congresswoman Kelly, Ranking Member Comer, and members of the 
House Committee on Oversight and Reform.
    My name is Dr. Joia Crear-Perry and I am an OB/GYN by 
training and serve as the founder and president of the National 
Birth Equity Collaborative, where we create global solutions 
that optimize Black maternal, infant, sexual, and reproductive 
well being.
    We shift systems and culture through training, research, 
technical assistance, policy, advocacy, and community-centered 
collaboration. In the United States, the legacy of devaluing 
Black women's lives is directly linked to today's Black 
maternal health crisis. Slavery as an institution and white 
supremacy as a framework have had a direct impact on the 
maternal mortality crisis among Black birthing people in the 
United States and around the globe.
    From the stories told by Black women regarding the lack of 
respect for maternity care received in their birthing 
experiences as well as recent occurrences received in their--I 
am sorry, forced sterilization of women in ICE detention 
centers, it is clear that the very systems in place today that 
perpetuate harm are keeping the legacy of eugenics and 
population control alive and well. From Lucy, Betsey, and 
Anarcha to Kira, Shalon and Amber Rose, Black mamas deserve 
better.
    The structure of our American society causes poor maternal 
health outcomes for Black people, not individual choices or 
genetics. Structural forces include our political, economic, 
justice, and education systems, as well as racism, immigration 
status, classism, gender oppression. All are reinforcing 
systems of oppression that cause harm and death.
    In the last five years, at least 48 Black women have been 
killed by police and zero officers have been convicted. In 
order to end the Black maternal health crisis, we need to 
center Black women's lives and experiences, and that means 
addressing interlocking systems of oppression.
    So we must, first, infuse a reproductive justice lens into 
policymaking, as demonstrated with the Black Maternal Health 
Momnibus Act of 2021. The Momnibus Act advances reproductive 
justice by joining once fragmented issues like racism within 
the healthcare system, implicit bias training, veterans, 
substance use disorder, climate change and environmental 
justice, criminal justice, and medical technology by censoring 
the most marginalized Black and indigenous birthing people.
    No more silos. No more toolkits and drills as the solution. 
Health is a right and reproductive justice is the pathway to 
codify that right. We must establish the White House Office of 
Sexual and Reproductive Health and Well Being.
    Sexual and reproductive health and well being are a key 
component of people's overall health and quality of life. We 
need to reproductive health equity. Efforts related to maternal 
and child health are siloed. Family planning services and 
social supports are disinvested in and have their roots in 
eugenics and population control in the United States and 
abroad.
    We don't need a plan. We need power. A permanent 
infrastructure is needed to develop a Federal strategy for 
promoting sexual and reproductive health and well being through 
a human rights and racial equity lens and to better coordinate 
the many--the work of the many departments and agencies whose 
actions impact our well being.
    Since I can breastfeed and have abortion on the same day, 
the Federal structures that support me should work together to 
support the full personal bodily autonomy of all people.
    The establishment of the office can drive change and foster 
accountability by developing a national strategy for 
integrating sexual and reproductive health equity into 
established Federal processes.
    And we have to reckon with the effects of COVID-19 on 
maternal health. The COVID-19 pandemic has disproportionately 
affected Black women and exacerbated inequities in maternal 
health outcomes.
    Black women are more likely than white women to be 
essential workers, thus, increasing the likelihood of exposure 
and contraction of COVID-19. These physicians tend to have 
lower wages and they don't come with benefits like employer-
sponsored insurance or paid sick leave. Without these 
coverage--without insurance coverage, routine maternal care 
visits are delayed or disrupted. Barriers to providers are 
heightened.
    To address the impact that COVID-19 has had on Black 
maternal health, funding should be allocated to Black women-led 
community-based organizations to support the delivery of care 
in person or via telehealth through the Centers for Medicare 
and Medicaid that should support hybrid models of healthcare by 
providing guidance, incentives, and promoting telehealth and 
birth center services.
    Congress should pass the COVID-19 Safe Birthing Act to 
promote birth equity during the pandemic and after. Further, we 
must increase health insurance coverage by mandated Medicaid 
postpartum coverage to be extended for at least one year.
    The American Rescue Plan grants states the option to extend 
Medicaid postpartum coverage between the typical 60 days to at 
least 12 months. However, allowing the states to have the 
option to opt out of providing continuous coverage does not go 
far enough to address the maternal mortality crisis, an 
additional barrier for Black and indigenous women to access 
high quality and affordable health insurance. We applaud 
Illinois, but we worry about our sisters who live in Florida 
and Texas and other places.
    Last, we must increase the pathways for birth workers of 
color. There are not enough Black workers of color, leaving 
Black birthing people with limited autonomy or opportunity to 
receive racially concordant care, which is associated with 
improved maternal health outcomes for Black mamas and babies.
    Community-based birth workers such as doulas, midwives, 
lactation consultants, and community workers, and my colleagues 
who are members of the Black Mamas Matter Alliance, are 
essential to improving maternal and infant health.
    Medicaid and private insurance can reimburse and cover, but 
most states have not. Requiring Medicaid reimbursement for all 
types of perinatal birth workers will help to rebuild and 
repair community trust and lead to reduction of health 
disparities in noncentered communities where health--holistic 
healthcare plays an essential role.
    Further, we should invest in midwifery schools at 
historically Black colleges and universities as a pathway to 
increase the number of Black midwives and increase investment 
in pipeline programs for Black physicians, including OB/GYNs 
like myself.
    Data shows that cultural concordance matters for Black 
births. I am committed to Black justice, liberation, and joy, 
and yes, liberation and joy can even be part of birth. They are 
core tenets of sexual and reproductive well being that values 
more than just mere survival or the absence of disease, but the 
ability to thrive.
    So, that is what birth equity is all about. Thank you, and 
I look forward to your questions.
    Ms. Kelly. Thank you so much, Dr. Crear-Perry. And now I 
would like to introduce our last witness, Dr. Taylor.
    You are now recognized for your testimony.

  STATEMENT OF JAMILA TAYLOR, PH.D., DIRECTOR OF HEALTH CARE 
        REFORM AND SENIOR FELLOW, THE CENTURY FOUNDATION

    Dr. Taylor. Good afternoon.
    Chairwoman Maloney, Ranking Member Comer, and members of 
the committee, thank you for the opportunity to testify on 
structural racism and Black maternal health.
    I serve as the director of health care reform and senior 
fellow at the Century Foundation, a 100-year-old progressive 
think tank that conducts research, develops solutions, and 
drives policy change to make people's lives better.
    According to the CDC, Black women are dying of pregnancy-
related causes more than any other racial or ethnic group. We 
are also most likely to experience severe maternal morbidity.
    Poor maternal health outcomes among Black women cannot 
solely be attributed to social determinants such as poverty or 
educational attainment. Rather, structural racism is the main 
culprit.
    Racism cannot be understood as simply interpersonal bias 
and animus. It is a powerful social condition that has its 
roots in a centuries-long system of oppression and devaluing of 
Black people and Black women in particular.
    It not only persists today in our healthcare policies and 
practices; it has real significant impacts on people's health. 
According to the Aspen Institute, structural racism is defined 
as a system where public policies, institutional practices, and 
cultural representations work to reinforce and perpetuate 
racial inequity.
    Much of American history and culture in which whiteness is 
privileged and color is disadvantages squarely fits this 
definition. The Aspen Institute also affirms that structural 
racism has been a mainstay in the social, economic, and 
political systems in which we all take part.
    Healthcare is one of those systems. Throughout history, 
Black women have endured abuses by some in the medical 
profession. Enslaved Black women were forced to undergo 
experimental surgeries to advance the study of obstetrics and 
gynecology. Low-income Black women have been subject to forced 
sterilization. Our bodily pain has been diminished or outright 
ignored.
    There are too many examples to list. These events have 
lasting implications for the health care challenges Black women 
face today. Harmful institutional practices and negative 
cultural representations have led to trauma inducing pregnancy 
and birthing experiences, and even death for some women.
    This has to change, and, fortunately, it can be done. For 
one, healthcare providers should be trained in ways that afford 
them the opportunity to recognize and address racism and bias 
in their interactions with Black patients.
    Practitioners should be equipped to ensure safety protocols 
that offer quality care that respects and values Black life. 
Public policy which can also perpetuate racial inequity needs 
to change as well.
    The groundbreaking report on equal treatment published by 
the Institute of Medicine in 2003 asserted that health 
disparities not only emerged from how healthcare systems 
operate, but also from the legal, regulatory, and policy 
climate within which health is delivered.
    One example of this is how some policy decisions make it 
harder for Medicaid enrollees, a program that 
disproportionately serves women of color, to access the health 
care they need. Almost half of all births in this country are 
covered by Medicaid. But for women who enroll in pregnancy only 
Medicaid, coverage ends just 60 days after giving birth.
    The American Rescue Plan Act takes steps to remedy this 
shameful policy by giving states a time-limited option to 
extend coverage for new mothers up to one year. The Act also 
incentivizes Medicaid for states that have yet to do so, states 
which are, largely, concentrated in the South, where about half 
of African Americans live.
    And while both of these provisions are progress, we 
desperately need long-term fixes to support the health care 
needs of Black women and birthing people. This means all states 
expanding Medicaid, mandatory extension of postpartum coverage 
to at least one year, and passage of the Black Maternal Health 
Momnibus.
    Failure to take these steps will only further limit 
coverage for women of color and perpetuate racial inequity. We 
all have a role to play in dismantling structural racism, which 
is a key contributor to racial disparities in maternal health.
    It is past time to implement policies and healthcare 
practices to ensure quality care that is equitable and 
respectful of Black women and birthing people.
    In addition to my testimony, I will be submitting my 
article, ``Structural Racism in Maternal Health Among Black 
Women,'' as published in the Journal of Law, Medicine, and 
Ethics, for the record.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Ms. Kelly. Thank you so very much, Dr. Taylor, for your 
testimony, and at this time, I would like to turn it back over 
to Madam Chair Maloney for questions.
    Chairwoman Maloney. [Presiding.] Thank you, Co-Chair Kelly, 
and thank you for your moving testimony. I now recognize myself 
for five minutes.
    Ms. Ali and Mr. Johnson, thank you for sharing your stories 
with us this morning. They are heartbreaking, and I am sorry 
that our health system--that our American health system harmed 
you and your families.
    Addressing our Black maternal mortality crisis will require 
a systemic shift in our approach to maternal health care and 
targeted data-driven policies. But right now, we simply don't 
have the tools to collect the data we need to inform good 
policy.
    So, Dr. Taylor, let me start with you. How is the Federal 
Government's data collection on adverse Black maternal health 
outcomes lacking?
    Dr. Taylor?
    Dr. Taylor. Yes. Thank you so much for your question, 
Chairwoman Maloney.
    You know, right now, we still have a fragmented system in 
terms of collecting data in this country and so, you know, the 
best that we can use or what we see coming out of the CDC is, 
basically, an estimate.
    You know, you have heard a lot today from our colleagues 
about the need to advance and ensure better funding for 
maternal mortality review committees, and that is going to be 
key to make sure that we have more accurate data.
    The Preventing Maternal Deaths Act was passed in, you know, 
2018 and that bill allocated additional funding for states to 
develop and start maternal mortality review committees. But we 
still don't have them in every state, and so until we do that, 
you know, then we will have more accurate data, both in terms 
of race and ethnicity.
    And we also need to know what the impacts are on these 
communities, both from a qualitative level as well as a 
quantitative level.
    Chairwoman Maloney. Thank you. There are a number of bills 
that have been introduced in the House that would improve data 
collection. For example, Congresswoman Kelly's MOMMA's Act 
would standardize Federal data collection and reporting on 
maternal mortality rates, and the data for MOMMA's Act, part 
about Momnibus package championed by Congresswomen Underwood 
and Adams, would foster improvements in data collection 
practices and promote diversity and community engagement in 
maternal mortality review committees.
    So, Dr. Crear-Perry, how would better data collection 
reduce Black maternal mortality and morbidity in the United 
States?
    Dr. Crear-Perry. Thank you. So, we know that during the 
COVID pandemic there was a highlight of the need for data, 
right. We were sending resources to places based upon bias. We 
were hearing words like it is the Chinese virus and all those 
biased, and so that made our infrastructure shift.
    It is the same thing that happens when it comes to Black 
maternal health. If you don't have the actual information, you 
are going to create solutions not based upon what is really 
happening.
    The beauty of us having, finally, the data released by the 
CDC after the testimony that Charles and I were able to give to 
increase funding for the CDC to help support states for 
recording show that, you know, Black birthing people were still 
five times more likely to die in childbirth, despite having an 
advanced degree.
    That is the kind of thing that you need in order to be able 
to then say, so don't just blame them and say go to school and 
your outcomes will become better, because we go to school and 
we still die.
    So, we need to have data so they don't operate out of bias 
when we create policies and strategies and investments just 
like we had to do during the COVID pandemic.
    Chairwoman Maloney. Thank you for your excellent answer.
    I was pleased to join my colleagues on the Oversight 
Committee and in the Black Maternal Health Caucus earlier this 
week in asking the Government Accountability Office for three 
new reports that were crafted from the Momnibus legislation, 
and these are the three reports that we have requested.
    The first will examine how the coronavirus pandemic has 
exacerbated America's Black maternal health crisis and how our 
efforts to build back better are impacting these outcomes.
    The second will analyze the state of our country's 
perinatal work force, including barriers to assessing care by 
midwives and other maternity care professionals.
    And the third will evaluate how America's Black maternal 
health crisis disproportionately harms people who are 
incarcerated.
    In each of these requests we asked GAO to assess how 
limitations in data collection inhibit their abilities to draw 
conclusions. This will help us to understand what we still do 
not know.
    Mr. Johnson, let me end by asking you what do you hope will 
come out of this hearing today?
    Your mic is not on.
    Mr. Johnson. Anybody? There we go. OK.
    Chairwoman Maloney. Now we hear you.
    Mr. Johnson. OK, here we go.
    So, thank you, Madam Chairwoman. Let me, first, say, as I 
expressed earlier, that although the statistics and the stories 
that we are hearing are devastating, what I want you to 
understand and I want all the members of this committee to 
understand is on behalf of the families that have been impacted 
by this crisis, legislation like the Momnibus gives us hope. It 
gives us hope.
    And day in and day out, I talk to families who are 
grieving, families that are devastated, fathers that are trying 
to find their way in their new reality, and to be able to tell 
them that we understand your loss.
    And there are people in the highest offices of power who 
are making the sacrifice of their loved one a priority and who 
are working tirelessly to make sure that it does not continue 
to happen.
    So, my hope is that this committee, this Congress, will 
come together in a bipartisan fashion the likes of which we 
have never seen. Because the reality of the situation is, as I 
have said before, is that there are two types of people in this 
country--either you have a mama or you are one. It is that 
simple, and we have to make this a priority.
    And I hope that people will begin to realize what this is. 
This is not a Black issue. This is not a Black women's health 
issue. This is a human rights issue. It should be a fundamental 
human right to deliver a healthy child in this country and live 
to raise that child. That is my hope.
    Chairwoman Maloney. Well, I hope they will be able to 
deliver on your hope by coming together in a bipartisan way and 
working collectively to change the system and to pass the over 
15 bills that were under consideration today.
    And thank you for sharing your story and your pain and your 
loss with us, and it will inspire all of us to work harder to 
help you and families like yours.
    Mr. Johnson. Thank you very much.
    Chairwoman Maloney. I want to thank all of our witnesses 
for sharing their very powerful and personal perspective with 
the committee today, and I want to thank my colleagues for 
lending their outstanding leadership and expertise to today's 
hearing.
    In the United States, it should be a national scandal 
anytime a parent is lost during childbirth, and we should not 
rest, any of us, until we turn the tide on this crisis.
    I now recognize the gentlewoman from North Carolina, my 
Republican colleague, Ms. Foxx from North Carolina, for five 
minutes, after which the leadership will return to my co-chair, 
Ms. Kelly, for the duration of this hearing.
    Again, I thank all of the participants and I look forward 
to everyone's questions.
    Ms. Foxx, you are now recognized for five minutes.
    Ms. Foxx. Thank you, Madam Chairman, and I thank our 
witnesses for being here today also.
    The questions I have are all for Dr. Auguste. The U.S. and 
Canada have the lowest overall level of midwives and 
obstetrician/gynecologists, between 12 and 15 providers per 
1,000 live births respectively.
    In contrast, all other countries have between two and six 
times more midwives and OB/GYNs. How does this lack of 
providers impact expectant mothers?
    Dr. Auguste. Thank you, ma'am, for the question.
    So, I think that this contributes--the lack of these 
providers around midwives contributes to the lack of work force 
that we are seeing that contributes to the lack of attention 
that is given to all of our mothers, particularly Black women.
    So I think that, like many of the other panelists have 
mentioned, you know, being able to make sure that midwives are 
part of the healthcare delivery team will absolutely help and 
assist with the improvement of Black maternal health outcomes. 
Access to----
    Ms. Foxx. Let me ask you--let me ask you to add to that. 
What can we do to encourage more people to enter birthing 
helper professions?
    Dr. Auguste. Thank you again for that question.
    I think that it starts earlier on. I think we have to make 
this more of a awareness of the type of medical care that 
people can offer being midwives. Again, include them as part of 
the team to deliver healthcare. Make this more of the 
conversation. Have it well known and understood that the 
improved outcomes with this entire team--a physician, midwives, 
and doulas--will help on maternal health efforts.
    Ms. Foxx. Well, we think--you agree that having midwives 
and other nonphysician partners can help decrease the risk for 
mothers. Is that correct?
    Dr. Auguste. Access to nonclinical support personnel like 
doulas and midwives is associated with improved outcomes for 
women in labor. I have worked alongside both for my entire 
career and I appreciate and extremely value the care that they 
provide for the patients of a low-risk nature. Absolutely.
    Ms. Foxx. Great. The COVID-19 pandemic seems to have forced 
care providers to increase telehealth options, which has 
increased the likelihood that pregnant women receive prenatal 
care. How does an increase in prenatal care impact the 
potential outcome for the mother?
    Dr. Auguste. Thank you. Yes, you are correct. Telehealth 
will increase the impact and the occurrence of prenatal care. 
Entering and adhering to prenatal care enriches the 
conversation and the relationship between the patient and the 
providers.
    It allows time for the patients and the providers to 
discuss concerns, again, based on that relationship that they 
develop, have the women be heard and to have all their 
questions and concerns answered.
    So, I think this is just a win-win situation in terms of 
solidifying the relationship between patients and their 
providers.
    Ms. Foxx. A lot has been said today about the need to 
increase care for rural communities, and we all know it is 
difficult to get physicians of all kinds to live in rural 
communities.
    But talk a little bit about the impact of increased 
telehealth services on rural communities.
    Dr. Auguste. Sure. So, I think that in rural communities we 
have to very clearly understand that studies have found that 
pregnancy-related mortality ratios rise with increasing 
rurality.
    So, again, the lack of access to high-quality maternal 
services in rural communities is a result of many factors and 
telehealth can very much help.
    So, again, being able--we cannot forget to have those 
resources available to the rural communities so that we can 
improve the access and the adherence to prenatal care.
    Ms. Foxx. Great. I have 39 seconds left. Is there anything 
you wanted to say that you have not been able to say in your 
testimony so far in my questioning?
    Dr. Auguste. Thank you for that opportunity.
    I just wanted to say that with all of the panelists here, 
it highlights the fact that this crisis is multi-factorial and 
that we have to work together on this.
    All the panelists here bring together a different point of 
view, but this is all very important. It is multi-factorial 
problems. We have to have a multi-factorial solution, and all 
the panelists here are bringing that together, along with all 
the members of this committee in Congress. Thank you.
    Ms. Foxx. Thank you, and thank you, Chairwoman Kelly, for 
allowing me the time to ask questions. I yield back.
    Ms. Kelly. [Presiding.] Thank you, Representative. The 
gentlelady yields back.
    And now the gentleman from Virginia, does he have his 
camera on? Congressman Connolly?
    Mr. Connolly. Yes.
    Ms. Kelly. You have five minutes, sir.
    Mr. Connolly. I don't know why my camera went off. I am 
sorry.
    Thank you, Chairwoman Kelly, and thank you, Chairwoman 
Maloney. This--I can't imagine a more important and gripping 
hearing we have had in recent history than this.
    Mr. Johnson, your testimony goes to everybody's heart. What 
you and your family have gone through and suffered no American 
family should ever have to go through or suffer, and I can only 
assure you your words matter. You sharing your experience is 
going to matter, and this is an issue we won't let go of in the 
U.S. Congress and, hopefully, in a strong bipartisan fashion, 
as you suggest.
    Dr. Taylor, we heard from Ms. Ali and we heard from Mr. 
Johnson stories of blatant indifference to, you know, women who 
were suffering, who were in pain, who were going through a 
difficult experience, and it cost one woman her life.
    How in the 21st century is it possible that the medical 
profession is still capable of that kind of gross negligence 
and indifference to any patient, white or Black? And help us 
reflect on that. I mean, what does that say about hospitals and 
medical care in America?
    Dr. Taylor. Thank you for your question, Mr. Connolly.
    You know, I think it is important to note here, you know, 
there is a reason why this hearing has a theme about racism, 
right, and when we talk about racism in a structural sense or 
when it is institutionalized, sometimes it can be harder to 
see.
    You know, it could be more in covert forms instead of overt 
forms. And we have also heard today that there is this of 
legacy of oppression and white supremacy that has really been--
you know, was first instituted during when African Americans or 
Black people were enslaved and it has followed us until where 
we are now.
    And when you hear in those stories the fact that women's 
pain has been ignored, they have not been listened to, that is 
a manifestation of racism within the healthcare system. And, 
you know, from my perspective, that also dates back to slavery 
where women were abused, you know, used for the experimentation 
of surgeries in the study of obstetrics and gynecology. Their 
pain was ignored.
    You know, there is this perception that Black people have 
thicker skin. They may not feel pain in the same ways that 
white people do, and so that is being institutionalized in the 
healthcare system and it has led to, you know, the grave 
challenges that we have seen in terms of Black women, Black 
birthing people, and their experiences.
    And so, I think, for us to move beyond this issue and 
really see change, we really have to deal with these racist 
perceptions of pain in the Black body.
    Mr. Connolly. Thank you.
    Dr. Gillispie, would you like to comment on that?
    Dr. Gillispie-Bell. Yes, thank you so much. I echo what Dr. 
Taylor has said. When we look, historically, especially in 
obstetrics and gynecology, and we look at the racism in 
medicine, just starting back to Marion Sims, who was known as 
the father of modern gynecology, who performed his procedures 
on slave women without anesthesia, even though anesthesia was 
available at the time.
    What got perpetuated and what that published in the 
textbooks is that Black individuals don't feel pain in the same 
way, and in a recent study that was done at a medical school 
where they interviewed over 200 white residents and white 
medical students, they believed that Black individuals have 
thicker skin and that our nerve endings are not the same so 
that we don't feel pain in the same way.
    They also found in this study that the higher their 
disbelief was about Black individuals and their pain tolerance, 
the more likely they were to not prescribe appropriate pain 
medications.
    And so what has been perpetuated through history has to be 
corrected, and I am speaking about pain. But there are 
hundreds, hundreds of biases that have formed the way we 
educate our medical students and our residents to then go and 
practice medicine.
    And so we have got to start to undo these biases and we 
have to diversify the work force so that we have providers that 
are bias interrupters to be able to bring truth to the way 
medicine should be performed and the way that we--that we 
respect all birthing persons.
    Mr. Connolly. Thank you. In my brief--my time is up but I 
just want to conclude by observing we not only have to look at 
the huge inequities in terms of access to health care, we also 
have to look at how healthcare is practiced.
    Thank you so much, all of you, for the courage of being 
here today and for riveting and enlightening testimony.
    Thank you, Chairwoman Kelly.
    Ms. Kelly. The gentleman from Virginia yields back.
    And now the gentleman from Ohio, Congressman Gibbs, has 
five minutes.
    Mr. Gibbs. Thank you, Madam Chair.
    First of all, I would like to say the birth of a child that 
should be for the family--for celebration and excitement and 
look forward to a bright future, and it is sad to hear when 
there is problems, obviously.
    Well, I am going to start off, first, and ask Mr. Johnson a 
question. Obviously, that was tragic what happened, the loss of 
his wife and child.
    Was there anybody held accountable or any legal action 
taken for the unacceptable behavior that you can't tolerate, 
Mr. Johnson?
    Mr. Johnson. Certainly. Thank you for that question, and 
extremely unfortunately there has been zero accountability in 
my wife's case, for multiple factors.
    In the state of California, they have a set of caps on 
medical malpractice recovery that limit the value of human life 
to $250,000. So, what happens is, oftentimes, doctors who are 
perpetual bad actors are not held accountable. Not only that, 
the medical systems and the hospitals are not forced to be 
transparent.
    So, the anniversary of my wife's death was five years on 
April 13. To this day, the doctor who was mainly responsible 
for taking her back to surgery and was found grossly negligent 
in her death by the California Medical Board is still 
practicing medicine.
    He was disciplined with only three years probation after 
being found grossly negligent not only in Kira's death, but in 
the death of, I think, six other women, right. So, there has 
been zero accountability. There has been zero transparency, 
which adds insult to injury to families like mine. And I could 
go on and on and on----
    Mr. Gibbs. Let me interrupt. I don't want to run out of 
time. But the medical board did hold him accountable, but then 
they didn't really hold him accountable. They just said he was 
grossly negligent, and that is an issue that should be 
addressed either through the legal system or, obviously, the 
legislature, too.
    We shouldn't let bad actors, if it is bad doctors, bad 
police, bad anybody, they should be--they should be held 
accountable and removed from their positions.
    So, I know about racism, right, and I struggle a lot with 
that, knowing that, you know, in our society, you know, in the 
medical community, we have lots of Black nurses and doctors and 
same thing in the police and in the cities where we have--and 
some of the written testimony there was talk about police 
brutality. I am sure it happens.
    But in these areas where we have--in these urban centers 
the leadership is Black, in most cases, in a lot of cases, and 
elected--and some elected officials. I just want to mention 
that. So, there are some things that are hard to reconcile 
with.
    I will also say that, you know, I think we have--poverty, 
you know, these people in our inner cities the Black community 
has been trapped in poverty, in housing, mental health issues, 
drugs, suicides.
    We have all heard of that--heard about that, and one of the 
reasons they are trapped in poverty is because our education 
system has totally failed our Black community and they don't 
have a choice to get out or get to a better opportunity.
    We have loss in the Black community, a lot of families with 
the fathers not there. So, there is a lot of other issues that 
go into this, too, I believe.
    And so economic opportunities--on the last Congress, we 
passed opportunity zones targeted to these areas to provide 
jobs and opportunities and also criminal justice reform, a 
bipartisan bill.
    Hopefully, that will help address some of these issues.
    In my district here in Ohio in my largest county, Stark 
County, with a program called Thrive that helps especially with 
the Black community, safe, affordable housing.
    They have mentoring programs for fathers. They also supply 
baby supplies, food, and diapers, and those--you know, 
obviously, those programs are helpful and help people lift out 
of poverty, because I think poverty is a--is a root cause of 
this issue.
    Voice. My God.
    Mr. Gibbs. Pardon? OK. Somebody was just--so unmuted there.
    Anyways, I want to ask Ms. Auguste--Dr. Auguste, has there 
ever been any studies done that you know that determine the 
correlation between infant mortality and opioids and drug abuse 
in the--you know, I guess, in the Black community, or any 
community, for that matter?
    Dr. Auguste. Sure. Thank you very much, sir, for that--for 
that question. There are very clear links to opioid use and 
increased opioid use with both maternal and infant mortality. 
So yes, there definitely are.
    So, I think that it is important that those issues as well 
need to be addressed.
    Mr. Gibbs. OK. And I think some of the other--as I 
mentioned. I am out of time so I have to yield back. But I 
think we do need to address the poverty issue, especially how 
it is affecting the education system and the lack of 
opportunities, especially in the African-American community.
    I yield back.
    Ms. Kelly. The gentleman from Ohio yields back.
    And now I would like to recognize the gentleman from 
Maryland, Congressman Raskin.
    Mr. Raskin. Thank you, Madam Chair, Congresswoman Kelly, 
Congresswoman Pressley, Congresswoman Maloney. This is truly an 
extraordinary hearing and it has got history-making potential, 
depending on what we do with it, and I just want to thank you 
all for arranging such an extraordinary panel of witnesses.
    Dr. Gillispie-Bell, let me start with you. You stated that 
one factor stands out when you control for all of the 
variables, and I want to be very clear about this.
    You are saying that African-American women suffer 
disproportionately negative outcomes regardless of income or 
wealth. So, that even within the category of affluent African-
American women, they--we are still seeing racial disproportion. 
Is that right?
    Dr. Gillispie-Bell. That is absolutely correct. Thank you 
so much for recognizing that. Yes, we find that looking 
specifically at severe maternal morbidity that a Black woman 
with a college degree is twice as likely to experience a severe 
maternal morbidity when compared to a white woman with less 
than a high school diploma. And so, again, as you have already 
said, and that is a testament to addressing--for addressing 
education, addressing those socioeconomic factors and still 
having adverse outcomes.
    Mr. Raskin. And you are citing studies that have isolated 
all kinds of variables that refute different theories about 
biological differences, physiological differences, all of it.
    It comes down, as Dr. August or Auguste--forgive me, I 
missed the original pronunciation--but, Dr. Auguste, let me 
come to you. It comes down to what you say is not race, but 
racism.
    And I love this point, Dr. Auguste, because you have made a 
point I think several of the panelists have also echoed, which 
is that race itself is a social construction. The whole concept 
of race was a construction of racism, the ideology of racism 
that in America was put to service for enslavement and 
oppression and exploitation of people. And so you blame it, 
generally, on race. It makes it sound like there is nothing we 
can do about it.
    But if you identify specific structures of racism, that is 
something that we can actually change. We have got the power to 
change that, and it is so moving to hear these doctors come in 
and say that.
    So, Dr. Auguste, let me ask you, what are some of those 
specific manifestations of racism in our medical practices, in 
our medical system, that we can alter by being conscious of 
this and intervening?
    Dr. Auguste. Thank you very much for the question.
    So yes, as you can see from the conversation that we are 
having here, it highlights that there is racism at all levels 
and, unfortunately, we know that racism is structural and 
institutional, and implicit bias on our healthcare providers 
contribute to the racial and ethnic disparities that we are all 
talking about and have contributed to this poor outcome.
    So, organizations like ACOG are committed to addressing the 
issues around racism in medicine, particularly at the base of 
structural and institutional racism, and we want to be able to 
partner and are glad to partner with Congress in correcting 
these.
    I just want to say that, you know, in my experience, 
healthcare providers, physicians, don't enter the profession 
with intention of providing inequitable health care. It is--it 
is the fact of the implicit bias on part of our healthcare 
professionals that needs to be addressed.
    Mr. Raskin. Very nice. OK.
    Dr. Taylor, I want to ask you, quickly, if I could, how has 
insurance coverage been shown to improve health outcomes for 
women who are delivering? And I say this because Medicaid, I 
think, and Medicaid coverage can be a critical part of the 
answer here. So, does it--how does expanding health insurance 
coverage work to improve outcomes, Dr. Taylor?
    Dr. Taylor. Thank you for that question, Representative 
Raskin.
    Absolutely. Health insurance coverage is essential to not 
only ensure that women can keep up with their medical 
appointments, you know, support--it also supports, you know, 
the health of the infant as well. When mom is healthy, the 
infant is also healthy.
    So, the continuum of care is critical, and that goes hand 
in hand with having insurance coverage.
    Mr. Raskin. Thank you so much.
    Finally, Mr. Johnson, your testimony just broke my heart, 
and I want to thank you for being out there speaking up for 
your wife, your kids' mom and for all of those moms.
    And I wonder if you would just say a word about the 
importance of making this an issue not just for women, but for 
men, too.
    Mr. Johnson. So absolutely. So, thank you--thank you for 
your comments. It is critically important that as we are 
fighting to protect mothers that we are doing everything that 
we can to also empower their partners, if that means a father, 
if that means a support person, if that means whatever--however 
they are coming to their birthing experience, that they are 
informed, they are empowered about potential warning signs, 
that they understand how to advocate for them if their partner 
can't advocate for herself.
    But it is also critically important that we reform systems 
in a manner in which these voices are heard and they are not 
dismissed, and a Black man such as myself, who is advocating 
for his wife at her most vulnerable point, is seen and heard 
and not seen as a threat.
    That is what we must do, moving forward.
    Mr. Raskin. Thank you so much. I yield back, Madam Chair. 
Thank you for your indulgence.
    Ms. Kelly. The gentleman from Maryland yields back.
    And I now recognize the gentleman from Pennsylvania, 
Congressman Keller.
    Mr. Keller. Thank you, Madam Chairwoman. Every mother and 
newborn child in America deserves access to high-quality 
healthcare before and after delivery. Far too many rural 
communities do not have a qualified childbirth provider.
    Healthcare providers such as midwives must work around 
scope of practice requirements, licensing laws, and regulations 
surrounding physician supervision.
    Dr. Auguste, to what extent are Federal restrictions 
surrounding midwives contributing to these work force 
challenges?
    Dr. Auguste. Thank you, sir, for the question.
    So, I am a clinical expert and am not exactly familiar with 
all the legislative and Federal restrictions. However, I think 
the key takeaway point here is that there is a known shortage 
of healthcare providers in these rural areas.
    So, we are talking about midwives and physicians. There is 
also a maldistribution of where those health providers are. So, 
we can look at those sort of--look at those sort of issues and 
really help to bring them into the communities where they are 
needed.
    Some programs, like the National Health Service Corps, will 
help to bring those needed maternal health providers to some of 
those rural areas and urban areas where they are needed.
    Mr. Keller. So, that would be one of the steps. Would there 
be any other steps that could be taken to ease the regulatory 
burden on midwives or other in order to recruit more providers 
to the profession?
    Dr. Auguste. Sir, but I do apologize, I am not qualified to 
speak on the regulatory burdens on midwives. But our 
organization like ACOG and our legislative department can and 
will happy to get back to some of those.
    Mr. Keller. I appreciate that. A study done by the Harvard 
Chan School found that as many as 36 percent of post-delivery 
deaths are caused by suicide. While even a single suicide is 
unacceptable, these statistics tragically illustrate the need 
for continued maternal care after birth.
    Dr. Auguste, how could an increase in telehealth 
availability help new mothers experiencing mental health 
challenges in rural areas of America?
    Dr. Auguste. Thank you, again, for that question.
    Maternal mental health is one of the most common medical 
complications during pregnancy and, particularly, in the 
postpartum period that affect many women.
    ACOG's guidance has been very clear. We have actually just 
put out new clinical guidance recently on optimizing the 
postpartum care that really does have a large focus on the 
mental health conditions. ACOG is also a supporter of 
telehealth modalities in this space as well.
    ACOG works with having a working group on telehealth. It is 
important to understand that it is not--telehealth, that it is 
not just video but also audio. All of these modalities of 
telehealth are going to help all of our women particularly in 
the postpartum period.
    If they have multiple children in addition to a newborn, it 
may be more feasible for them to use a telehealth modality to 
contact their health provider, and that point of contact, 
regardless if it is in person, by video, or by phone is going 
to be critical in preventing any further maternal mortality or 
morbidity.
    Mr. Keller. Thank you. I appreciate that. And also, would 
there also be a telehealth that would be helpful before 
delivery that might help some of the mothers take care--you 
know, get that kind of help that maybe before delivery that 
would help a more positive outcome, you know, for childbirth?
    Dr. Auguste. Absolutely. ACOG provides the guidance to 
obstetricians to continuously monitor and ask about a woman's 
maternal mental health throughout the course of pregnancy.
    Telehealth can be used during the whole course of 
pregnancy. It is--again, as many of the other panelists have 
mentioned, it is now expected to be part of prenatal care and 
health delivery.
    So, utilizing telehealth, perhaps, for a quick check-in 
when someone may not feel well or they feel like something's 
amiss, to have that connection point with a health care 
provider is critical.
    Mr. Keller. And I think it is just as critical prior to 
delivery throughout the pregnancy, and I think if we look at 
that would you agree that if we make sure people have that 
access to telehealth for mental health and emotional issues 
that might create a more positive outcome and not as many 
mothers would have problems during delivery or after?
    Dr. Auguste. I think--yes, I think that telehealth, in 
person, addressing mental--maternal mental health will make a 
difference in terms of our maternal mortality.
    Mr. Keller. Thank you, everyone, for your testimony and 
attention to this extremely important subject. Congress needs 
to remain committed to decreasing the maternal mortality rate 
so that more American families can get the care they need and 
lead healthy lives.
    Thank you, and I yield back.
    Ms. Kelly. The gentleman from Pennsylvania yields back and 
now I would like to recognize the gentleman from California, 
Congressman Khanna.
    Mr. Khanna. Thank you, Madam Chair, and thank you for your 
extraordinary leadership for many years on this issue. Thank 
you to my colleagues who testified so powerfully this morning, 
and thank you to the distinguished panel.
    This hearing is long overdue and I am really grateful to 
all of you for helping educate us on this and spur us to 
action. As we work to enact policies to make childbirth safe, 
we must ensure that every single patient is listened to and 
supported, as we have heard from a number of the panelists, and 
one way we can do this is expanding access to doulas and 
midwives.
    In fact, my understanding is there are multiple studies 
showing that integrating midwives into the healthcare system is 
associated with better outcomes for both mothers and babies.
    Dr. Crear-Perry, if I could start with you. Could you 
please, briefly, explain the role of doulas and midwives for 
pregnant people?
    Dr. Crear-Perry. Yes, thank you for that question. So, it 
is important for us to realize that midwifery was decimated in 
this country when we ended grand midwifery, which Black women 
were birthing babies around--Black and white babies when this 
country was founded.
    And so undoing the racism and the harm means acknowledging 
that and ensuring that we have a full spectrum of access to 
birth workers. Doulas provide social support and safety. My 
colleagues, as OB/GYNs, we understand that. When it comes to 
high-income patients, we expect them to have social support.
    What we have not been able to grapple with is the need and 
the desire for people who are less centered to have social 
support and sometimes that we are not capable or we are not--we 
have not gotten to being able to appreciate how that is 
important as well.
    So, it is important for us to be able to broaden our view 
and make room for all the people and who--to support birthing 
people, and we recognize that birthing people want doulas and 
midwives.
    In every other country that has better birth outcomes than 
we do, that is who delivers those babies. And so instead of 
us--and we know we have maternity deserts. So, it is not a 
fight. It is not pie. There is room for all of us. We need more 
Black doctors but we also need more Black midwives and more 
Black doulas.
    Mr. Khanna. Thank you, Dr. Crear-Perry. In fact, a study 
published in the Journal of Perinatal Education found that 
people who use doulas were four times less likely to have a low 
birth weight baby and two times less likely to have a 
complication.
    Dr. Taylor, maybe I could turn to you. How could access to 
these resources improve outcomes specifically for Black 
birthing people?
    Dr. Taylor. Sure. Absolutely. I mean, you have already gone 
over the stats. I mean, for Black birthing people having access 
to doulas and midwives is essential, particularly if those 
doulas and midwives look like them.
    Research also shows that for doulas and midwives that focus 
on having care models that center their patients and their 
lived experiences, they have better birth outcomes.
    And so this also means--we have talked a lot about today, 
you know, ensuring the pipeline of a diverse work force and so 
that means we do have to make sure that we are creating 
opportunities, particularly for people of color, to be in those 
professional pipelines to get their certifications, to get 
their trainings, and to get the education that they need in 
order to support Black families and meeting them where they 
are. In most times, they are the ones that are on the front 
lines, meeting their needs, again, that is consistent with 
their lived experiences.
    Mr. Khanna. Thank you. One of the things many of us believe 
in this body is that we need universal health care. We need 
Medicare for all. We need equal resources.
    But what I am hearing from you and some of the panelists is 
that that is not enough to deal with racism, that even if you 
have health care as a human right, even if you have Medicare 
for all, even if you have everyone having the same amount of 
access to doulas, you still have a problem of race. You still 
have a problem of discrimination that is leading to disparate 
outcomes.
    I wonder, Dr. Taylor or Dr. Crear-Perry, if you can talk to 
us about what we need to do as we craft a Medicare for all bill 
or other bills of universal health care to deal specifically 
with the issue of race?
    Dr. Taylor. Well, I can start. Oh, go ahead, Dr. Perry--
Crear-Perry.
    Dr. Crear-Perry. Oh, I am sorry. I was just going to say 
that you can never do race-neutral policies to end racist 
policy. So, we created Medicare and Medicaid in a racist 
strategy. You know, Medicaid is a states' rights issue, and you 
see that play out over and over and over again.
    So, when you do Medicare for all or any kind of universal 
health care coverage, you have to actually explicitly undo the 
racist harm that is currently being done by the current 
policies that we have.
    Mr. Khanna. Dr. Taylor, did you have any comment? And then 
I think my time is up.
    Dr. Taylor. I would just say I agree with that. You know, I 
think you said it precisely. Coverage is not enough. So, you 
know, my opinion is that we need to not only fix our health 
care policies and ensure that health care is accessible and 
affordable to all families.
    We also need to address the racism that is systemic within 
a restructure in this country and that is going to have to go 
hand in hand with the fixes for the--for health insurance.
    Mr. Khanna. Thank you. Thank you so much to the entire 
panel.
    Ms. Kelly. The Congressman from California yields back.
    And now I would like to recognize the Congressman from 
Kansas, Congressman LaTurner.
    Mr. LaTurner. Thank you, Madam Chairwoman. I want to thank 
you for holding this critical hearing to help the committee 
explore the causes of the unacceptable high maternal mortality 
rate in the United States, especially among Black, American 
Indian, and Alaska Native women.
    While the U.S. has one of the most advanced health care 
systems in the world, we are lagging behind several other 
developed nations in the area of maternal mortality rate. 
Nearly 700 women die every year in the U.S. because of 
pregnancy-related complications, and an additional 25,000 women 
will suffer from unintended health consequences due to 
pregnancy.
    The worst part is that, according to the CDC, nearly two-
thirds of every pregnancy-related death is preventable. We must 
take action to fix this immediately. I do want to point out 
some important solutions in this area that were--that were 
provided by the previous administration to achieve what 
everyone in this hearing desires, fewer deaths and health 
complications due to pregnancy in America.
    Last December, then HHS Secretary Azar released a 184-page 
report entitled ``Action Plan to Improve Maternal Health in 
America,'' which sets forth a comprehensive well-thought out 
plan to achieve demonstrable targets by 2025.
    Madam Chairwoman, I would like to submit a copy of the 
action plan for the record.
    Ms. Kelly. Without objection.
    Mr. LaTurner. Thank you. It is my strong hope that the 
Biden administration will not abandon this deeply important 
effort by the previous administration. We should continue the 
good work that has already begun in this area and build off of 
it, moving forward.
    Our country already lags too far behind other developed 
nations when it comes to maternal mortality. We cannot afford 
to abandon the significant progress this action plan offers and 
start from scratch.
    Before I ask today's witnesses to comment on the plan, let 
me briefly summarize what the action plan does. According to 
the 184-page report, HHS provides a roadmap for addressing risk 
factors before and during pregnancy, improving the quality of 
and access to maternity and postpartum care, and support a 
research agenda to fill gaps in current evidence.
    The vision behind the action plan is to, quote, ``make the 
United States one of the safest countries in the world for 
women to give birth,'' end quote, especially for Black women, 
who are 2.5 times more likely than white women to suffer a 
pregnancy-related death or a serious complication.
    The action plan includes four goals to help achieve the 
vision along with three ambitious health outcome targets by 
2025. As set forth by former HHS Secretary Azar, the four goals 
include achieve healthy outcomes for all women of reproductive 
age by improving prevention treatment, achieve healthy 
pregnancies and births by prioritizing quality improvement, 
achieve healthy futures by optimizing postpartum health, and 
improve data and bolster research to inform future 
interventions.
    By putting our complete focus and resources on these four 
broad goals, the action plan sets forth three significant 
maternal health outcomes to be achieved by 2025.
    One, reduce the MMR across the board by 50 percent in five 
years; two, reduce low-risk Cesarean delivery by 25 percent in 
five years; three, achieve blood pressure control in eight out 
of 10 women of reproductive age who suffer from hypertension in 
five years.
    Madam Chairwoman, I hope HHS Secretary Becerra, along with 
Congress, will take the hard look at the previous 
administration's action plan and choose to buildupon its 
progress for the sake of American mothers.
    With my remaining time, I would welcome any of today's 
witnesses to share what they know about the action plan and 
their thoughts on the plan.
    Dr. Crear-Perry. I will start. This is Joia.
    We were working with HHS currently on the C-section work 
and a continuation of the action plan. With the previous 
administration it was exciting to see there was a desire to 
work on maternal health and there was a desire even in this 
body to pass bills.
    What was missing and still--what we hope this can buildupon 
is an explicit identification of racism as a root cause, 
because even though we can decrease C-sections and we can 
improve outcomes when it comes to hypertension, we cannot do 
those things without addressing the bias that makes people do 
C-sections unnecessarily or makes people say Black people just 
have high blood pressure so I won't treat it.
    So, it is a both/and so it is important to build on that, 
but explicitly call out the root cause of racism. So, thank 
you.
    Mr. LaTurner. In the remaining time, would anyone else like 
to comment on their knowledge of the plan or their thoughts 
about opportunities to build on it?
    Dr. Auguste. Thank you, sir. This is Dr. Auguste, though I 
may not be familiar with every aspect of the plan, it is very 
important to know that ACOG and other organizations, but ACOG 
particularly, continues to support some of the programs 
outlined, particularly the support for the AIM Program that was 
mentioned previously in my testimony, the Perinatal Quality 
Collaboratives, and optimizing postpartum care.
    These are all things that many of the panelists have 
mentioned and ACOG supports as well. So, thank you.
    Mr. LaTurner. Thank you, Madam Chairwoman. My time has run 
out. Thank you for holding this hearing. I appreciate the time.
    Ms. Kelly. Thank you. The gentleman from Kansas yields 
back, and now I would like to recognize the gentleman from 
Maryland, Congressman Mfume.
    Mr. Mfume. Madam Chair, thank you for this opportunity. I 
want to thank you, Chairwoman Maloney, Ranking Member Comer, 
and everybody else that has participated in these last two, two 
and a half hours on what, clearly, is a topic that begs for 
discussion and cries out for action.
    I would--I do want to thank the ranking member for pointing 
out that this must be and has to be a bipartisan approach to 
get this done, and I would hope that other members of the House 
and of the Senate see that and act on it as well.
    I do want to say to my colleague, the gentleman from Ohio, 
that we must be very, very careful when we start suggesting 
that maladies in a community, whether it is poverty or lack of 
education or lack of opportunity, contributes to these high 
death rates.
    That is not the case. As has been said over and over again, 
this affects the most affluent African Americans. It has 
nothing to do with your status in life. It has everything to do 
with your race, and all we need to do would be to drive 90 
miles from D.C. into Appalachia to see that poverty besets 
everybody and lack of education is not solely the exclusive 
domain of one race.
    And as Exhibits A and B, I would suggest that Ms. Ali and 
her husband, and Mr. Johnson and his wife, represent affluent, 
well-educated, good taxpaying citizens who had a single hope 
and that was to bring forth a child, and in each case underwent 
things that we don't want to happen to anybody.
    And so when you consider that here we are in 2021, after 
200 years of slavery, oppression, deprivation, degradation, 
denial, disprivilege, that we are still back at the center of 
the argument and that center of the argument is this whole 
construct of race, as my colleague from Maryland, Mr. Raskin, 
pointed out in his comments, and that is what has to be 
dismantled before we would make any progress.
    I do want to say that I don't have questions. I am just 
spouting out my observations. I have been around this body lots 
of times, both previously in the 1980's and the 1990's and now 
again, and I know that sometimes questions don't take the place 
of how something hits you, and when it hits you, you have an 
observation that you can't run away from.
    And I am hoping that other Members of the Congress get a 
chance to read this committee's report as well as the report of 
the other six committees that have joint jurisdiction over this 
to understand that there is a crisis.
    You cannot be the greatest democracy in the world and be 
55th in the world in terms of child mortality. You can't have a 
situation where one segment of your population, in this 
particular instance African Americans, tend to be three times 
more likely to face a deadly situation as it relates to 
birthing.
    We can't ignore the fact that PAs and midwives are the 
stopgap measures that we have right now until we do something 
more disciplined to deal with this problem, that we ought to be 
trying to find a way to support and advance them and others.
    I am happy to be a co-sponsor of the Momnibus bill. I have 
said to a number of people this is not just about women. This 
is about men as well, which is why I appreciated the testimony 
earlier from Mr. Johnson, and that we, as men, have to find a 
way, regardless of whether we are Black or white or anything 
else, to talk about this with men, even if they are not in the 
stage of being in a situation where their wife or partner can 
bear children because of their age. They still have to find a 
way to help move this effort forward, I think.
    I spent a few years back some time as the executive 
director of the National Medical Association, and I can tell 
you that Black physicians across the country have been ringing 
this bell for years and years and decades and decades with 
early publications going back to the 1930's about how this 
problem has beset the African-American community and how it has 
done so in a way out of, again, this construct of race.
    So, I just want to commend everyone who has spoken. I think 
that, clearly, the panel--the first panel of our colleagues--
had an effect on me as did the second panel of persons who have 
undergone these tragedies. I don't know where Representative 
Bush might be.
    But as soon as I see her, I am going to tell her I can't 
wait to see her son and meet Zion 21 years after the fact, when 
he was supposed to have been dead had it not been for her 
advocacy.
    I want to thank Ms. Ali for her advocacy to make sure that 
her son's head was not sucked off by people who were using 
devices and apparatuses that only could cause problems.
    Mr. Johnson, I don't know what to say to you except that, 
man, it is a tragedy and a nightmare, that I am so honored and 
pleased and I thank God that I did not go through with the 
birth of my six sons. I can only imagine your heartbreak, and I 
just want to pledge to you today personally and man to man that 
we will find a way to get something done to move this forward, 
to get it the attention that it needs of the entire House and 
Senate and to finally create what Jamie talked about as a 
historic moment in a committee of oversight to do something 
that will have lasting effects and make real and lasting 
differences.
    Madam Chair, with that I will yield back any time that I 
might have.
    Ms. Kelly. The gentleman from Maryland yields back.
    And now I would like to recognize the gentleman from 
Georgia, Congressman Clyde.
    Mr. Clyde. Thank you, Chairwoman and Ranking Member, for 
holding this hearing today. I appreciate your shining a light 
on our Nation's unacceptably high mortality--maternal mortality 
rate and advocating for upholding the sanctity of life.
    As you know, the CDC defines maternal mortality as the 
death of a woman while pregnant or within one year of the end 
of pregnancy. The irony is not lost on me that while my 
Democrat colleagues sit here today to talk about protecting the 
life of mothers, we cannot forget that mothers are, indeed, the 
bearers of life, and so we must protect the sanctity of life in 
its entirety.
    Unfortunately, many of my Democrat colleagues have not 
committed to upholding life at all stages, as their leadership 
continues to block the Born Alive Abortion Survivors Protection 
bill, as well as repeated requests from the Republican side of 
the aisle to ensure taxpayer dollars do not fund abortion 
providers such as Planned Parenthood.
    And so I want to take a second to reflect on that latter 
point. As it is critical that we work to ensure all communities 
have access to quality health care, including maternal health 
care, the bottom line is that Planned Parenthood and other 
abortion providers do not have any regard for the sanctity of 
life, and so by no means provide quality health care. In fact, 
their founder advocated for the exact opposite of life.
    It sickens me that the government continues to funnel tax 
moneys to Planned Parenthood and abortion providers that claim 
to provide quality care to expectant mothers in several of our 
communities, including those that need it most, but fail to do 
so.
    While the facts show that Black communities are reeling 
from high rates of maternal mortality, rural communities such 
as my district in North Georgia, Georgia's 9th, are also 
struggling. Just as the COVID-19 does not know racial 
boundaries, maternal mortality rates, at large, do not either.
    And so I do not believe my constituents should be left out 
of today's conversation just because they do not fit into the 
racial lens of today's hearing. In fact, Georgia is in the top 
10 of the highest maternal mortality rates in the country with 
48.8 per 100,000 deaths.
    In 2019, the Georgia House of Representatives formed a 
study committee on maternal mortality and reviewed three years 
of maternal death rates in that state--in the state. They found 
that 60 percent of deaths were preventable.
    Furthermore, it was found that rural women have a much 
higher maternal mortality rate than do urban women. While white 
women--excuse me, white women in rural areas have a 50 percent 
higher maternal mortality rate than white women in urban areas, 
and Black women in rural areas have a 30 percent higher 
mortality rate than their urban counterparts.
    To reduce these unnecessary deaths, the state of Georgia 
created the Perinatal Quality Collaboration--Collaborative, 
which has been implemented several of the initiatives put 
together by the Alliance for Innovative Maternal Health.
    Specifically, it sets forth the best practices for maternal 
care and provides recommendations for hospitals, protocols, 
policies, and a system of date tracking.
    Over 60 Georgia hospitals participate in these maternal 
health initiatives touching 87 percent of all births in Georgia 
to date.
    While ensuring quality maternal health care remains a top 
issue nationally along with protecting against maternal 
mortality, I want to take this opportunity to commend my state 
leaders and officials for taking steps to protect the life 
across all communities in the state.
    There is more work to be done, and I am committed to 
looking for ways to support them.
    With that said, I turn now to a few of today's witnesses. 
This question is for Dr. Auguste.
    Doctor, thank you for being here today and thank you for 
your testimony. As you know, 40 percent of all U.S. counties, 
most of them rural, lack a qualified childbirth provider. Do 
you believe an increase in quality maternal care providers will 
positively affect maternal morbidity rates and how so?
    Dr. Auguste. Thank you, sir, for that question. Simply put, 
yes, definitely. I think this is an issue in our rural areas 
where there is a lack of providers, both physicians, midwives, 
and I think that there has to be--there has to be efforts to 
increase that, things like--things like the National Health 
Service Corps that will aid in providing--putting and placing 
providers in those rural areas are critical here, utilizing 
some of the tools.
    Some of these providers that are there that are the only 
providers for hundreds of miles, giving them the tools that 
they need, things from AIM, from different bundles. Utilizing 
the Perinatal Quality Collaboratives to make sure that they 
have the resources that are there for those providers in the 
rural areas, I think, will be critical.
    If we provide the resources and a streamline for increased 
providers in those rural areas, we should be able to see 
improvements in maternal mortality.
    Mr. Clyde. Thank you very much, Doctor. I appreciate your 
answer.
    Ms. Kelly. The gentleman from Georgia----
    Mr. Clyde. And I yield back.
    Ms. Kelly [continuing]. Yields back, and I would like to 
recognize the gentlewoman from New York, Congresswoman Ocasio-
Cortez, for five minutes.
    Ms. Ocasio-Cortez. Thank you. Thank you so much, 
Chairwoman--Madam Chairwoman.
    That was just a lot, and I think it is really important 
that it is addressed very directly right now and in this 
moment.
    First and foremost, I don't want to hear a single person on 
this committee or outside of this committee talk about what--
about valuing life when they continue to uphold the death 
penalty, when they continue to support policies that 
disproportionately incarcerate and lead to the deaths of Black 
men and people throughout this country, and uphold in a--an 
absolutely unjust medical system that exists for profit that 
allows people to die because they can't afford to live.
    In addition to that, if we want to talk about Planned 
Parenthood, let us talk about how many lives Planned Parenthood 
has saved and how many babies have been born because of the 
prenatal care provided by Planned Parenthood.
    And if you don't--if you don't believe it and if you have 
never met a Planned Parenthood baby, I am happy to let you know 
that I am one, and that my mother received and relied on 
prenatal care from Planned Parenthood when she was pregnant 
with me.
    And so if we are concerned about life, we don't get to talk 
about anyone else who is not concerned about the full spectrum 
of that when we are upholding policies that kill people.
    Moving on, I would like to submit some incredible testimony 
from healthcare providers and champions and advocates from my 
district right here in the Bronx and Queens: Dr. Heather 
Irobunda, and three midwives--Carmen Mojica, Melissa Enama 
Bair, and Dr. Anne Gibeau, as well as the testimony from one of 
my constituents, Bruce McIntyre, who, like Mr. Johnson, lost 
his love and life partner, Amber Rose Isaac.
    Ms. Kelly. Without objection, so ordered.
    Ms. Ocasio-Cortez. Thank you so very much.
    And I want to thank every single one of our witnesses that 
were here today to share their story, many of which were 
intensely personal, and it should not be up to us to rely on 
sharing a trauma that is so personal in order to enact change.
    The right thing should just be done without doing--without 
having to share and relive these traumatic experiences. But you 
all have chosen to do so and I thank you, particularly Ms. Ali 
and Mr. Johnson, for sharing that and opening your experiences 
today. So, thank you.
    I would like to start--you know, every single one of these 
medical providers and people who offer testimony from the--to 
my office as well pointed to social indicators of health. They 
said, if you want to protect Black women, we need to talk about 
housing. We need to talk about livable wages. We need to talk 
about guaranteed access to health care.
    And also, when it came to Mr. McIntyre, we need to talk 
about medical racism. Because this isn't just about poverty or 
education at all. This--you could have all the access to the 
resources of the world and still be subject to medical racism 
within our system.
    In fact, Mr. McIntyre, with his partner, Amber Rose, tried 
to get family leave approved by their OB/GYN and their OB/GYN 
didn't believe her. And while she saw white women patients at 
the same income level and opportunities as her due at a later 
date routinely get approval for FMLA, she didn't because her 
pain wasn't believed and her concerns weren't believed.
    So, I had--I know I have just a minute left but I wanted to 
ask two questions, one on midwives and one on that--on the role 
of men.
    So, I wanted to ask Ms. Ali if you felt that perhaps 
midwifery or doulas in your experience or in experiences that 
you have seen in your advocacy could help stem or be a 
protectant against medical racism in having that advocate there 
by your side, and I also wanted to ask Mr. Johnson about how 
this system is hurting men and spouses as well.
    So, we will start with Ms. Ali. Thank you.
    Ms. Ali. Thank you for that question and for what you said 
earlier as well. You gave my heart some rest.
    In the advocacy work that I have done and in meeting a lot 
of different midwives, you know, and doulas, they kind of--they 
play more than birth worker roles, in many cases.
    They--they are--you know, in some cases, they are often put 
in positions where they have to defend the rights to autonomy, 
the rights of their--the people they are seeing, their 
families, their rights to choice. And, you know, I know--the 
thing is, though, there is this, you know, OB/GYN-led kind of 
conversation happening. There are--I have--I know a lot of 
people where, you know, the doulas don't necessarily have the 
authority to be able to do what they really can in the 
hospitals.
    So, there is this kind of tug of war that is taking place 
in the hospital who--you know, what the patients want them 
advocating for the patients but not really having the power 
that--or this--the same so to have their choices be heard, have 
the patients' choices be heard.
    I know. I mean, I said it in my statement, but the 
experience I had with my midwife was completely different. It 
is a completely different--it is a paradigm shift in the way 
that they care for you.
    My OB/GYN, I only saw him 20 minutes every session. He 
didn't really get to know me and my family or my desires, and 
when I even talked about natural birthing positions and, you 
know, when I had questions to that nature, he made a joke and 
he told me that I could hang from the lights in the delivery 
room if I wanted to. And when it came to actually birthing, he 
wasn't even there. He was on vacation.
    And so midwives have a completely different--it is a 
totally different modality, that it made me feel--she made me 
feel safe. We felt safe with her, even when we had to go to the 
hospital.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Johnson. So, thank you for that question. First, let me 
say thank you for uplifting and centering the story of Amber 
Rose Isaac and the work of Bruce McIntyre, who is a dear, dear 
friend of mine and I draw inspiration from him daily because he 
is a champion.
    And so with specificity to your question, I think that it 
is--this maternal mortality crisis is impacting men in ways 
that are immeasurable. But I want to talk specifically about 
the layered roles that racism plays in the lived experiences of 
Black families and, particularly, Black fathers.
    So in my situation, when my wife was most vulnerable and I 
was doing everything I could to advocate for her, Kira, at her 
most vulnerable state, the thing that she kept saying to me as 
I was getting increasingly frustrated and angry was, ``Baby, 
just please stay calm. Stay calm.'' Because Kira knew that if I 
raised my voice, if I slammed my fist on the table, if I 
grabbed a doctor by the collar, if I turned over a table, then 
I would have immediately been seen as a threat as a Black man 
and been removed from the hospital or the situation.
    And every single day, I ask myself the question what is it 
that I should have done or what could I have done differently, 
and that haunts me. Should I have yelled? Should I have--I 
mean, but the reality of the situation as a Black man I did not 
have the same autonomy to raise my voice, scream, that a 
Caucasian father would.
    And as I look back on April 12 of 2016, the only outcome 
that I can conceive that could have been worse than what 
happened to Kira is had I been thrown out of the hospital or 
detained and then my wife not survived.
    But at bare minimum, at bare minimum, I can wake up every 
day knowing that I was there and I did everything within my 
power to try and save her.
    Ms. Ocasio-Cortez. And you continue to do everything in 
your power to honor her life and her legacy, and to protect so 
many other women and their partners and birthing people from 
having to endure the experiences that you have. So, thank you. 
Thank you so much.
    Mr. Johnson. Thank you.
    Ms. Kelly. The gentlewoman from New York yields back. And 
now I would like to recognize the gentlewoman from Washington, 
DC, Congresswoman Eleanor Holmes Norton, for five minutes.
    Ms. Norton. Thank you very much, Madam Chair.
    We have been hearing about losing a parent to childbirth 
and how devastating it is to families, and that too many 
African-American families are forced to endure this trauma.
    So, I thought I should share with--share with you a few 
stories that I think will drive this home. Dr. Chaniece Wallace 
worked as a resident physician at Riley's Children's Health 
Hospital in Indianapolis. She was only 30 years old and died 
just two days after she and her husband welcomed their first 
child, a daughter named Charlotte.
    Yolanda Kadima from Atlanta had previously worked as a 
lactation specialist. She died three days after she had a C-
section delivery and gave birth to twins. She left behind a 
husband and five other children.
    Mr. Johnson, who has stepped out--I am sorry. That is who 
my question was for because that is who I had a question for. 
If I can pause a minute. If we can pause a minute, because that 
is who I had written a question for.
    Ms. Kelly. We can pause.
    Ms. Norton. If we can pause on the hearing just a moment.
    [Pause.]
    Ms. Kelly. Congresswoman, do you want me to go to the next 
person and come back to you?
    Ms. Norton. Would you please?
    Ms. Kelly. Sure. I would like to recognize the gentlewoman 
from Michigan, Congresswoman Tlaib.
    Ms. Tlaib. Well, thank you so much, Chair Kelly, and thank 
you so much to all of our panelists for being here. This is an 
incredibly emotional and personal issue, just as a mother 
myself and also as a Detroiter, where we see our babies, you 
know, approximately 15 out of every 1,000 of our babies are not 
surviving or not getting to their first birthday and we see 
more of a risk, obviously, among Black mothers who face, you 
know, obstacles like massive water shut offs, hospital deserts, 
and other increased stresses, which is experienced every single 
day due to structural racism in our country.
    But, you know, I have been compelled and this question is 
for you, Ms. Ali, to address this myth that we are hearing in 
committee. I mean, you are an accomplished actress. What is 
your opinion on this myth posed during this committee that this 
is solely a, quote, ``income problem'' and nothing to do with 
structural racism?
    Ms. Ali. I--how do I react to that? It makes me angry. It 
doesn't matter. You know, when you are--when you are in the 
hospital, you are in the same blue gowns, or green, depending 
on what the hospital puts you in.
    You don't have your makeup on. You are stripped down. You 
are in labor. And your concern is for the safety of your child, 
you know, even before your own. And so whatever fancy words I 
learned at the Ivy League school I went to they are not there 
anymore. You know what I mean?
    Those things, they should never matter, which is really 
problematic about this as an argument to not--as an argument 
against fixing this. Because it shouldn't matter what--where I 
went to school or how much money I make or, you know, I was an 
actor when I was a kid. None of that should matter. I 
actually--I come from a humble background. You know, I happened 
to get on a show when I was a kid, and none of that should 
matter and the truth is, it doesn't.
    Ms. Tlaib. I agree with you, Ms. Ali. You know, Black 
mothers are more likely to suffer from a stroke or a heart 
attack or given C-sections, which carry a far higher risk of 
maternal mortality, even during low-risk pregnancies. And so 
for many of us that have been championing this issue, this is a 
public health emergency and I truly believe the cause is 
structural racism.
    So, you know, Mr. Johnson, the story of what happened to 
your wife, Kira, after she gave birth is heartbreaking 
testament. I couldn't even, you know, stop shaking because I 
knew what it was going to lead to, but just hearing your pain.
    One, you should know that the guilt you might still feeling 
just as that person, the husband, the spouse, the partner, know 
this, that we failed you. You didn't fail her. So, I want you 
to hear that from me.
    But you said something that race didn't kill her, but 
racism did. Can you talk about and explain further what you 
are--you meant by those words?
    Mr. Johnson. Absolutely. Thank you for that. So, let me 
give a very vivid kind of example of where the intersection of 
policy and legislation and racism intersect specifically in 
Kira's case.
    So, keep in mind that we gave birth at Cedars Sinai 
Hospital in the state of California. So, some of the people--
some of the members of this committee may be familiar with AIM 
and the work that they have done with their bundles and their 
obstetric hemorrhage bundles, right.
    So, in short, there were policies and procedures in place 
at Cedars Sinai Hospital that should happen when a woman is 
showing signs of hemorrhage post-delivery, right. This hospital 
and the staff had been trained extensively to utilize these 
toolkits provided by ACOG.
    However, in my wife's case, they just chose not to use 
them. There were tools that were there at their disposal to 
save my wife's life. Hemorrhage after childbirth is not 
something that is abnormal and I am sure that the doctors and 
the experts on this--on this that have been chosen to testify 
can speak to that.
    But when she wasn't prioritized and she wasn't seen as a 
party, and when her pain was dismissed and when my concerns 
were dismissed repeatedly, that is when the intersection of 
bias, racism, can--bias and racism can have catastrophic and 
very oftentimes fatal consequences.
    And this is what I say when I have the opportunity to speak 
to care providers, systems, and medical students. If you are 
civilian and you hold bias in your heart--we all have bias, 
right. But if you are a civilian, you have the luxury to work 
those biases out in your own time or not.
    But if you are a care provider who is responsible for the 
life and well being of families, you have two options, as far 
as I am concerned. You can identify those biases, take steps to 
get better, or you need to find something else to do. It is 
that simple.
    Ms. Tlaib. Thank you. And, Chair Kelly, if I may, I would 
like to submit for the record a letter from Mothering Justice, 
which states Black maternal and infant death rates force us to 
acknowledge that bias isn't simply wrong, but it is deadly.
    And so I encourage all my colleagues to also read this 
important letter from Black mothers right in my community. This 
is an amazing advocacy organization that truly needs to be seen 
and heard in the halls of Congress.
    Thank you so much, and I yield.
    Ms. Kelly. Without objection, so ordered.
    Ms. Kelly. The gentlewoman from Michigan yields back.
    I would now like to recognize again the gentlewoman from 
Washington, DC, Congresswoman Holmes Norton.
    Ms. Norton. Thank you, Madam Chair.
    Mr. Johnson, I had been particularly moved by your 
experience as a father, and that is why I had shared a few 
stories that I wanted to lay before you before asking my 
question.
    One was from a physician, a woman who had worked as the 
resident who was only 30 years old and died two days after she 
and her husband had a first child. Another was a lactation 
specialist--you see, nobody is immune from this experience--who 
had died three days after a C-section and had given birth to 
twins, leaving five children behind.
    These families can never recover from this kind of impact, 
and you testified about losing your wife, Kira, after a routine 
C-section just after the birth of your second child.
    I would like to hear more about how the loss of your wife 
impacted you and your family, and whether you have heard from 
other families about any lasting impacts that they have 
experienced.
    Mr. Johnson. So thank you, Congresswoman, for that 
question. Thank you for centering the impact and the pain of 
the families in this conversation.
    And so my heart is particularly heavy, as it is every year 
as we approach Mother's Day, and I--we celebrated my son 
Langston's fifth birthday on April 12, and every year April 13 
is the day that Kira transitioned.
    And so it has been five years for us and I am still 
struggling to find understanding. One of the main reasons I am 
struggling with understanding is there has been zero 
accountability, if I am being frank. There has been zero 
accountability, and with all the work that we are doing, with 
the tremendous allies that have come to the table in meaningful 
ways, we are still losing mothers.
    We are still losing mothers in an alarming rate, and I 
have, in fact, heard from and I have talked to families--it 
almost seems like Groundhog's Day. Almost every day or weekly 
or biweekly, I am speaking to another father whose world has 
been devastated, another family who is searching for answers on 
why a perfectly healthy woman with so much to contribute is no 
longer here.
    And there is nothing that I can do to bring reason or 
rationale to this because it is--other than we are falling 
short time and time again.
    And so that is why I am here, and although we cannot bring 
these precious mothers back, we have an opportunity. We have an 
opportunity for everybody on this committee to do everything we 
can. We owe it to these mothers and we owe it to these families 
to do everything we can to make sure we send other mothers home 
with their precious babies.
    Ms. Norton. Thank you, Mr. Johnson. We needed to hear that.
    Mr. Johnson. Thank you.
    Ms. Kelly. The gentlewoman from Washington, DC, yields 
back. And now I would like to recognize the gentlewoman from 
California, Congresswoman Porter.
    Ms. Porter. Thank you so much.
    Ms. Ali, thank you for being here today. You wrote in 
detail about your birthing experience and the racism that 
threatened your life and the life of your child. I wanted to 
talk with you today about not just the physical challenges that 
Black mothers endure in childbirth, but the mental and 
emotional ones as well.
    Would you describe your first birthing experience as 
traumatic?
    Ms. Ali. Yes, absolutely.
    Ms. Porter. And was this trauma something you had to deal 
with in those first few weeks in motherhood--first few weeks 
and months of motherhood?
    Ms. Ali. I did, while I was, you know, also learning to 
breastfeed, and I would say I just didn't deal with it. My 
husband did as well. It is a good thing that we like to talk 
because we also didn't even realize that what we went through 
was something that we might, you know, want to talk to somebody 
about.
    It took a good year or so to really unravel everything that 
happened and that something bad had happened. A lactation 
consultant that I worked with, I remember telling her--she just 
asked me kindly, how was your birth? You know, what happened, 
da, da, da, and I shared a little and the look on her face is 
what let me know that my feelings were valid.
    Ms. Porter. Now, and I will also--as a mom of three who has 
gone through some of this herself, it can also--in addition to 
having an influence on the spouse, if it happens when you 
already have children in the home, the trauma of the arrival 
can be a real impact for those other young children who were 
afraid of their mother being sick, of losing the child, 
watching her heal.
    And, of course, you talked about this going on during the 
time that you were dealing with breastfeeding, lack of sleep, 
hormonal changes, physical healing, isolation.
    Were you able to get mental health services during that 
time? You talked a little bit about that lactation consultant. 
But so often I think people don't know that their birth has 
been traumatic or that they need those services, in some cases 
until they go to get pregnant a second time.
    And, for me, that was really when I realized that I had had 
a traumatic first birth. There was this enormous sense of fear 
and dread that I felt about being pregnant again, and what was 
supposed to be an incredible joyful thing. It was a planned 
pregnancy. Can you talk a little bit about your experience with 
getting mental health services?
    Ms. Ali. I think that, very similar to what you just 
described, when we were planning our--to get pregnant again. 
You know, we talked about all of the joys of seeing our first 
baby with a sibling and all of those things. But, really, the 
big discussion was how do we not let that happen again.
    And speaking with my midwife, actually being invited into 
these birth advocacy spaces, because I actually shared my 
breastfeeding story online and I was invited into the spaces 
and this world of advocates and birth workers just opened up 
for me, and it was a world that I didn't know existed.
    And that is--and that is when I really--that education--
that is when I was able to seek help for those feelings. And I 
still--you know, I still go through it.
    Ms. Porter. Well, and I just will echo what you are saying 
about the way--the level of care and support, that world, when 
you are in it and you are getting the help that you need to 
heal versus the level of despair and trauma and isolation, it 
really does save lives.
    And I want to turn to Dr. Crear-Perry to ask you about 
this. Are perinatal mood disorders, things like postpartum 
depression or postpartum psychosis, a contributor to maternal 
mortality--in maternal mortality?
    Dr. Crear-Perry. Yes. We know--thank you for that question. 
We know that postpartum anxiety disorder and postpartum 
depression are huge contributors to maternal mortality and that 
we have not created a infrastructure to support birthing people 
so that they can feel safe and heard and valued.
    Most places don't even have access to even therapy if you 
are--or even a social circle. And so we have kind of 
disconnected our mental health from our physical health in our 
American healthcare system and it shows up greatly in our 
birthing--the anxiety--and then we don't provide the social 
support that people need.
    So, we send people off to go back to work, usually within 
10 days after having a baby in this country with no pay leave, 
with no equal pay, with no childcare, and then we say, oh, but 
don't be nervous. We don't have access for anything for you, 
right.
    And so, like, all the ways that we are creating the 
nervousness by our policy choices, and then we don't also 
provide for safety--for mental health for people. So, we are 
doing a disservice on both ends.
    Ms. Porter. I could not agree more.
    Dr. Taylor, I just wanted to ask you, are new Black 
mothers--how likely are they, more or less likely, to be 
screened for depression during the postpartum period than white 
mothers? Can you talk about is there--is there a disparity and 
what you think the reason might be?
    Dr. Taylor. Well, there is, certainly, a disparity in terms 
of access to the mental health care and services that Black 
mothers need. You know, there is still a issue--I just want to 
say this--across the board in terms of accessing mental health 
care in this country, particularly for communities of color.
    We are less likely to have access to mental health 
providers that look like us, which I think is really critical, 
especially to ensure that we have, you know, culturally 
responsive care. Also, too, that even for people that do have 
health insurance, the costs that can be associated with mental 
health care is also a barrier for us.
    And so, whereas I think it really just comes down to 
whether or not you have health insurance and then also whether 
or not the providers that you do have access to are they--do 
they provide culturally responsive care, which is really 
critical for Black moms.
    Ms. Porter. I really appreciate that, and my time is about 
to expire. But I just want to emphasize there are policy things 
that we can do to address some of this.
    Building on what Dr. Crear-Perry said, last year I fought 
for the creation of a National Maternal Mental Health hotline, 
and one of my priorities this year is to secure increased 
funding for the hotline, which provides 24-hour voice and tech 
support, including culturally and linguistic--to meet 
individual cultural and linguistic needs.
    So, as someone who, you know, went through three children 
and, you know, was told, we will see you in----
    Ms. Kelly. The gentlelady's time is up.
    Ms. Porter [continuing]. We will see you in six weeks, good 
luck, that is not an appropriate response. That is not what 
mothers and fathers and kids and parents in this country 
deserve.
    Thank you very much, Madam Chair, for your indulgence.
    Ms. Kelly. The gentlelady from California yields back, and 
now the gentlewoman from Missouri, Congresswoman Bush, and 
thank you so much for your testimony earlier and sharing your 
personal experience.
    Ms. Bush. Thank you, and St. Louis and I thank you. Today's 
conversation is a necessary step in the work to address the 
Black birthing crisis in our country, a crisis rooted in our 
Nation's legacy of slavery, let us be clear. A country that did 
not even recognize Black people as full of people under the 
law, words that are still written in our Constitution.
    America's history is one that too often stripped away the 
humanity of Black women and Black people. Malcolm X once said 
the most disrespected person in America is the Black woman. The 
most unprotected person in America is the Black woman. The most 
neglected person in America is the Black woman. What a painful 
truth.
    In St. Louis, Black women and birthing people are four 
times more likely to die during childbirth birth. Four times. 
Missouri ranks 16th in the Nation for Black infant mortality, 
and these statistics outpace national averages.
    To truly understand what is happening to us today, we must 
first understand where it begin--where it began. Black enslaved 
women, my ancestors, were valued for their ability to increase 
the wealth for white slave owners, forced to provide strenuous 
labor and reproduce children that will later be torn from their 
arms and sold off. Your child born, torn from your arms and 
sold off, for you to never see them again, possibly, and that 
was OK with our society back then, and no one wants to really 
talk about that.
    Black enslaved mothers often only received medical care 
from trained doctors when their lack of fertility or 
difficulties during childbirth threatened that profitability.
    Dr. Taylor, how has the legacy of slavery affected Black 
maternal health?
    Dr. Taylor. Thank you, Representative Bush, for that 
question. You know, as I said in my testimony today, it is 
absolutely
    [inaudible.] I think if you look at, you know, some of the 
examples that you talked about, as well as others on the panel 
today, you know, discounting Black women's pain, you know, this 
focus on replenishing the population of slaves by using Black 
women's bodies, abusing Black women's bodies.
    You know, the pain piece is key because it is hard when we 
have this conversation, folks don't understand that there is a 
direct connection to some of the same, you know, situations 
that we see now, you know, in terms of Black women's pain being 
ignored or outright diminished in the context of their 
interactions with healthcare providers.
    That is based on negative stereotypes of how Black people 
feel pain, whether or not we feel pain, we have thicker skin. 
And so slavery and the barbaric, you know, situations that we 
saw during that time have a definite connection to some of the 
same challenges that Black women are going through today.
    And I will just say, too, I mean, we can rise above this, 
right. I mean, we haven't had a conversation today about what 
we need to do in terms of ensuring that providers have the 
right training.
    First, we need to acknowledge that that history is there 
and then how do we work with providers to make sure that we 
root out those racist stereotypes, those mindsets, to the point 
that it doesn't show up in their interactions with patients.
    Ms. Bush. Thank you. Black people were also used as 
scientific test subjects for the development of tools and 
surgical methods and medical procedures, exactly going down the 
lane you were just speaking about, Dr. Taylor, always without 
consent and often without anesthesia under the false racist 
belief, like Dr. Taylor just said, that Black people did not 
feel pain.
    Dr. Crear-Perry, Black women have been begging to be heard 
when it comes to our pain and our trauma. Can you describe the 
harm caused on Black birthing people, Black women, when 
providers dismiss or ignore our pain?
    Dr. Crear-Perry. Yes, and I think it has been--thank you 
for that question, Congresswoman. I am so excited to meet you, 
actually.
    Anyway, I think it has been mentioned earlier that there 
was a study that showed that medical students believed that we 
had thicker skin. I think Dr. Gillispie mentioned it. The truth 
is the reason they pick medical students because that is who 
would answer the question.
    But that is not just medical students. That is department 
chairs, the CEOs, that is everywhere that we go, this idea that 
we don't feel pain, the way that we have to minimize ourselves, 
we don't get access to treatment.
    There was another study that was done by our colleague at 
UNC, Dr. Johnson, who showed that we were less likely after 
having the C-section, a major abdominal surgery where we remove 
your uterus, place it on your chest, sew you back up--we were 
less likely to receive the same anesthesia as our white 
counterparts having the same exact surgery.
    So, we have data that shows that this devaluation, this 
belief that we are superwomen and we are super powerful and we 
don't feel pain shows up in how we are treated and how we are 
seen.
    We can think about Dr. Susan Moore, who had to fight to 
live from COVID-19, who said, ``I have pain,'' and they didn't 
believe her, and she ended up fighting for her life and then 
dying in a hospital, even as a physician who knew how to 
advocate and what to do.
    And in your place in St. Louis, there is a lot of work that 
is being done at the birth center and with the networks there 
to ensure that we increase and improve the outcomes by training 
providers around racism and the history of the legacy of racism 
in our field.
    Ms. Bush. Thank you. And, last, I will say, Ms. Ali, I 
wanted to ask you a question but we ran out of time. I want to 
thank you for sharing your story. Thank you, and I yield back.
    Ms. Kelly. The gentlewoman from Missouri yields back.
    And now I would like to recognize the gentlewoman from 
Florida, Congresswoman Wasserman Schultz. You have five 
minutes.
    Ms. Wasserman Schultz. Thank you so much, Madam Chair, and 
I really want to thank all of the witnesses today. I had an 
opportunity to listen to the testimony, and thank you so much 
to our colleagues who testified.
    Congresswoman Bush, your story was poignant and impactful, 
and just so appreciate you sharing that. I know how difficult 
that must have been.
    So, I am a mom. I was--I was pregnant during my first 
campaign for Congress. Gave birth to all three of my children 
while serving in office, and I can tell you that I experienced 
nothing like the stories that I have heard today, and I have 
heard countless stories like these.
    One thing that was important that was said during the 
testimony earlier was that we can't legislate against racism. 
So, I would really like to hear from any of the witnesses that 
would like to--that would like to share a response.
    Given all that we have--that we have discussed this 
afternoon, what can we do to make sure that we can impact Black 
maternal mortality, that would impact the inherent racism that, 
clearly exists in the healthcare system, exists among 
healthcare professionals?
    What I haven't really heard so much of, at least not in 
detail today, is the kind of--training is not the right word 
because you can't train out racism.
    But what can we do to open eyes of healthcare professionals 
and healthcare institutions so that at the outset, when a Black 
woman, a woman of color, presents with a pregnancy that they 
are cared for equitably all the way through their experience?
    Dr. Gillispie-Bell. If I may. I agree we cannot legislate 
racism out, but we can legislate for implicit bias training. 
There is data that--from social psychologist Patricia Devine 
that shows that you can teach others to undo their biases.
    It is a longitudinal action. It is not a one and done type 
of training. You have to think--because biases are unconscious 
it is like undoing a habit. So, just like I am not going to be 
here today saying, oh, I want to stop smoking and then in two 
days, I won't stop--I will stop smoking, that habits don't work 
that way.
    And so implicit bias training in the same way is about 
acknowledging that you have your bias and then doing actionable 
items to undo those biases.
    Now, it can be done legislatively. Every year, as a 
physician, I have to go in and I have to renew my medical 
license. So every year, you can require me to be trained to 
do----
    Ms. Wasserman Schultz. Right.
    Dr. Gillispie-Bell [continuing]. To undergo implicit bias 
training. So, there are things that we can--that we can do 
legislatively to address biases in the healthcare system.
    Ms. Wasserman Schultz. Thank you. Do any of the other 
panelists want to add to that?
    Mr. Johnson. Yes, I certainly would. So, I think that 
implicit bias training is critical, as we move forward. But 
from my perspective, it doesn't go far enough, and the reality 
of the situation is we cannot legislate the humanity.
    And as we are working on structural racism and all the 
things that are contributing, the reality we have to face is 
some of these are generational fixes.
    So, what we must do immediately if we want to see drastic 
changes is we need to, first, establish a fundamental dignified 
care threshold that we can quantify and then we must tie 
payment to meeting that standard.
    That is we must do. So, while we are working on all these 
issues of color, of what is--of white, Black, and how people 
are seeing or not seeing and working on those issues, let us 
make it about green. We should tie performance and payment to 
medical providers' ability to meet a standard of care for their 
patients.
    Dr. Crear-Perry. I just have to say that--he said we can't 
legislate humanity. But we can legislate anti-racism. Like, it 
was--racism was built into these policies. You can create 
policies that say we cannot be racist.
    For example, all the hospitals are still just as segregated 
as they were when we tried to desegregate them by law. So, you 
can say if you are taking Medicare and Medicaid and you only 
see two percent Medicaid in your facility that is illegal.
    There has to be a threshold so that we don't have a burden 
of illness on lower-resourced hospitals who only--that is 
racism that segregates hospital care. That is racism that says 
we can't open a birth center.
    That is racism. All of those things are policies that we 
can fix in this House, in this hall. You have an opportunity to 
undo racism.
    Ms. Wasserman Schultz. Madam Chair, thank you so much for 
the opportunity to have this discussion. I appreciate being 
able to elicit the responses that we did.
    And I will yield back the time that I don't have.
    [Laughter.]
    Ms. Kelly. This woman, the gentlewoman from Florida, will 
yield back the time she doesn't have. And now I would like to 
recognize the gentleman from Vermont, Congressman Welch, for 
five minutes.
    Mr. Welch. Thank you very much.
    First of all, I want to say thank you to my colleagues who 
testified in the first panel for doing such a terrific job 
bringing attention to this incredibly important issue.
    And second, I want to thank the witnesses for your 
excellent testimony.
    One of the concerns that I have, and I know we all do, is 
about work force issues, and I think that is very much 
integrated into access and the quality of service. And I want 
to ask Doctors Taylor and Dr. Crear-Perry about the challenges 
of building a diverse work force as something that I see and I 
think many of us do that could help in addressing the severe 
inequities in maternal health and beyond.
    Dr. Crear-Perry. Dr. Taylor, I was going to let her go 
first. But so I will go.
    So, we know that having culturally congruent providers or 
providers who look like their patients is actually lifesaving. 
My colleague, Dr. Hardeman, and her team showed that Black 
babies who were cared for by a Black provider were five times 
more likely to survive in a NICU. So, it is critical for us to 
invest in diversity in our work force.
    My colleague, Dr. Gillispie, mentioned the pipeline 
programs that we all used to participate in that have been 
decimated, where we could go and do research at LSU and other 
medical schools around the country, and middle school and high 
school and college.
    When we get rid of those pipeline programs you don't see 
diversity. When we don't--when we say we are going to invest in 
Black midwifery but we don't invest in HBCUs that have nursing 
programs where you can build on them to have nurse-midwives 
come from Black universities, that is a policy choice, right. 
There is an opportunity to invest in how we even support birth 
centers across this country.
    And I just want to go back to the conversation earlier 
about rural. I am from the rural South. I am from rural 
Louisiana. Rural does not just mean white. There is a diversity 
in ruralness.
    I also grew up in a place that needed work force and we 
needed access to birth centers. We needed access to doulas. We 
needed access to midwives in all of America, rural, urban, 
suburban, because all of it is diverse and rich and beautiful.
    Mr. Welch. Thank you. Go ahead.
    Dr. Taylor. Hi. Thank you for the question. Just to 
followup briefly, I agree with everything Dr. Joia Crear-Perry 
said, and then I will just add, too, that sometimes costs can 
be a barrier in terms of having access to training and 
schooling, particularly for the Black community, you know, and 
again, that also is directly connected to structural racism and 
income inequality in this country that tends to fall hardest on 
our communities.
    And so, in addition to everything that Dr. Perry said, I 
think we also need to make sure that we don't have any barriers 
in place in terms of costs that can keep us out of the 
pipeline.
    Mr. Welch. Thank you. I want to ask a little bit about 
telehealth as well. That, in the pandemic, has been a lifesaver 
for many of us in rural Vermont, and can you speak about 
telehealth?
    I will ask this to Dr. Gillispie and Dr. Auguste. Can you 
speak about telehealth and what it would provide in Black 
America before and after birth and if this telehealth would be 
an essential component of a tool for getting access to quality 
health care?
    Dr. Gillispie-Bell. Yes, I think that telehealth has the 
potential, definitely, to be a tool for access. As I mentioned 
in my testimony, here at Oschner we have a telehealth program 
called Connected Mom and it was crucial to making sure I could 
maintain prenatal care with my patients during the pandemic in 
a safe way for the visits that they did not have to come to the 
office for, to be able to--they had home monitoring devices and 
to be able to still continue that care.
    And so I think, definitely, for rural America, urban 
America, for all people, I think telehealth has the potential 
to be a benefit. But at the same time, we have to be very 
careful to make sure we are not furthering our disparities if, 
in those urban and rural communities, they don't have the 
infrastructure that they need to be able to maintain those 
services.
    Dr. Auguste. Thank you for that question, and to build on 
what Dr. Bell said is one of the crux items here is that we 
have to make sure that telehealth is equitable. We fail to 
recognize any full potential that telehealth or telemedicine 
could have if we don't properly implement that. And so we have 
to prioritize some of those advances in telehealth and 
particularly around telehealth access.
    So, we are talking about increased access to broadband, 
access, like I said, to audio only visits for those that don't 
have video capabilities or who aren't comfortable using video, 
and then coverage for durable, like, medical equipment, like, 
for remote patient monitoring, like blood pressure cuffs, and 
scales.
    So, I think this needs to be part of the conversation 
around telehealth in order to make it equitable.
    Mr. Welch. Thank you very much. I yield back.
    Ms. Kelly. The gentleman from Vermont yields back.
    And now I would like to recognize the gentleman from 
Georgia, Congressman Johnson, for five minutes.
    Mr. Johnson. I thank the gentlelady for recognizing me and 
I thank the Chairwoman Maloney for holding this hearing today.
    My home state of Georgia is the most dangerous state in the 
country for pregnant Black women where the maternal mortality 
rate is double the national rate, a problem that 
disproportionately affects Black women in childbirth, in 
addition to the usual stress, fear, costs, and obstacles faced 
by all people who give birth in America looking for the best 
possible medical care. Black people are forced to contend with 
discriminatory treatment and racial biases in the healthcare 
system.
    And this is a difficult topic and issue for white people, 
in general, to deal with, particularly my friends on the other 
side of the aisle. There seems to be a--just a mental block 
when it comes to the issue of systemic racism when they hear 
that term used or even just the simple term racism.
    It, like, shuts them down, and they start coming up with 
other reasons. Like, I have heard today, lack of education, 
poverty, crime, the lack of a male in the household as being 
reasons for what has been testified to today.
    And I even heard one of my colleagues ask you, Mr. Johnson, 
you know, whether or not you had, you know, filed suit, you 
know, trying to infer that maybe you are here to--with some 
kind of financial motive in mind.
    And, Mr. Johnson, I am deeply sorry for the loss of your 
dear wife and the mother of your two children. She was not the 
victim of a bad education system. She would not have been 
helped by charter schools or public schools. She was not the 
victim of lack of economic opportunity. Opportunity zones would 
not have helped your wife.
    She was not the victim of the criminal justice system that 
would have prevented her from losing her life. The passage of 
the Tim Scott Justice Act would not have helped your wife. Your 
wife was not the victim of not having a man at home. Your wife 
was not the victim of poverty.
    Your wife was killed because of exactly what was said and 
that is that she was not a priority, and the reason why she was 
not a priority was because of systemic racism. Until we 
understand that basic concept, there will never be anything 
that we can do to address the issue.
    White folks have to understand that racism is endemic in 
the soil of this Nation and in the hearts of its people, and 
until we recognize that we won't be able to root it out.
    Black people who give birth are often personally blamed for 
the systemic failures, compromising their care. Dr. Taylor, why 
must we ensure that issues such as the denial of healthcare and 
the mistreatment of Black people who give birth are considered 
within the context of systemic racism?
    Dr. Taylor. Thank you for that question. You know, I think 
we have heard across the board today that it doesn't matter 
what your socio-economic status is. As a Black person, this is 
an issue for us, and so I think when it comes to our care, you 
know, we definitely need to think more clearly about what we 
can do to at least address some of the issues on the surface in 
terms of provider training, ensuring that that training is 
rooted in anti-racism, which will also, in effect, deal with 
the issues around implicit bias, which I think folks are more 
comfortable with addressing and talking about.
    Mr. Johnson. Well, you can call it implicit bias or you can 
call it just straight out racism, systemic racism. But I will 
go with implicit bias, if that is what it takes.
    Dr. Taylor. Yes. I mean, I think for some people, it is--
you know, most likely, you know, our colleagues on the right 
side of the aisle as well as I think white folks in this 
country, it is more comfortable to talk about it as implicit 
bias.
    But we have to go deeper. I think one of the key things 
that we have seen, particularly in the last year, around racial 
reckoning in this country is that we can't address this issue 
with kid gloves.
    You know, as you said, sir, it is a part of every corner of 
this country and in order for us to address it in a substantive 
way as well as in a way that is going to root out the needless 
deaths that we are seeing in terms of maternal mortality for 
Black women and other women of color, we have to address it 
head on and we can't just focus on implicit bias.
    Mr. Johnson. Thank you. I am out of time, Madam Chair.
    In 2011, Amnesty International issued a report that 
identified the inappropriate, disrespectful, and discriminatory 
treatment of Black women of childbearing age and pregnant women 
as a human rights violation, and I ask unanimous consent to 
enter that Amnesty International report into the record.
    Ms. Kelly. Without objection, and so ordered.
    Ms. Kelly. The gentleman----
    Mr. Johnson. And with that, I yield back.
    Ms. Kelly [continuing]. From Georgia yields back.
    And now I would like to recognize the gentleman from 
Maryland, Congressman Sarbanes, for five minutes.
    Mr. Sarbanes. Thank you very much, Madam Chair, and thank 
you for the hearing, and to all of the witnesses this was 
incredibly powerful and moving testimony. And I hope that today 
will turn out to be transformational in terms of focusing the 
House of Representatives and Congress, more broadly, on 
addressing the issues that have been raised.
    The question I was going to ask has actually been asked a 
number of times, and there has been terrific answers--how do we 
drive the bias out of the medical profession and all those who 
can impact when it comes to the issues we have discussed today, 
and there has been good answers about the training on that.
    I did want to observe, and maybe it has happened already in 
the hearing, but as we know, recently the Centers for Disease 
Control, the head of the CDC, finally declared what has been a 
long time coming, which is that racism poses a threat to public 
health, and the CDC is now going to be studying that, 
collecting data on it, making the connection and drawing that 
much more clearly.
    And, hopefully, that kind of research and study and focus 
can benefit the issues that we have been addressing today.
    And I just invite maybe Dr. Crear-Perry and Dr. Taylor, 
among others, to observe whether you think that that new focus 
on the part of the CDC can help with respect to the issues that 
we are describing and talking about today.
    Dr. Crear-Perry. Yes, I was super excited to hear about 
that. That is a continuation of the work of my mentor, Dr. 
Camara Jones, who back at the CDC years ago asked for us to 
really focus on racism as a public health emergency.
    And when I think about our colleagues in Georgia at the 
same breath that we are talking about that white women in 
Georgia are dying, we don't want to understand--while we can't 
articulate how structural racism is the reason they are dying 
as well.
    When you don't expand Medicaid, when you don't invest in 
childcare, when you don't invest in paid leave, that also 
impacts white folks who are in Georgia.
    And so what we could do to undo this harm of believing that 
certain people should have and should not have having a place 
like CDC really look at the levers and the ways that structural 
racism harms all of humanity, sucks the resources from all of 
us.
    It deeply harms Black and brown people, but it also harms 
white folks, right. It is harmful to believe that you should 
have things just because of your skin color, and so, therefore, 
you show up and have a insurrection when, really, you are not 
supposed to have things just because of your skin color, right.
    It is important for us to really acknowledge the harm that 
white supremacy culture causes to folks as well. So, I am 
excited to see the CDC lean into creating actual real policies 
and strategies and helping us to understand that racism is not 
a feeling or an emotion.
    It is not calling you a bad name. There is a historic and a 
current belief of a hierarchy of human value based upon skin 
color, and we can create solutions to end that.
    Mr. Sarbanes. Thank you very much. Any other thoughts from 
the other panelists?
    Dr. Taylor. I will just followup and say, you know, I also 
think I was encouraged by the announcement. But we also need 
investment in a whole of government approach to address the 
racism issue in this country, and I think that with the CDC 
proclamation that is just the first step. But we need much more 
to focus on.
    Mr. Sarbanes. Thank you very much. Madam Chair, I 
appreciate the opportunity, and I yield back.
    Ms. Kelly. The gentleman from Maryland yields back, and now 
I finally get five minutes.
    [Laughter.]
    Ms. Kelly. You know, I have been running this hearing and 
listening to all the testimony and, Mr. Johnson, he and I have 
been together a number of times and, you know, I find myself 
tearing up, angry at some of the things that I heard because I 
have felt like some victim blaming.
    But, you know, I have been working on this for a while, and 
then Congresswoman Lauren Underwood and Congresswoman Ayanna 
Pressley came to Congress, and Congressman Underwood represents 
Illinois and Congresswoman Pressley is a native. And even 
though we are all working on this, the rates in Illinois are 
going up. They are not going down, even though we are working 
on this.
    And I want to let you guys know, and I promise you that I 
have a bill, the MOMMA's Act and in that bill I talked about 
Medicaid coverage for a year and I wanted it to be--to have to 
be for every state.
    But I could not get it passed. That is why we wound up 
doing what we did, because I could not get that bill passed. 
Included in that bill was cultural competency, review 
committees, best practices, but I could not get that bill 
passed.
    So, I am so glad that everyone is hearing your testimony 
today so they could see what you are saying, the experts, how 
very important that this is and we need a lot of different 
things.
    There is not just one answer, and we even do work around--I 
am the chair of the congressional Black Caucus Health Brain 
Trust--how do we diversify the healthcare pipeline. And I am so 
proud that my cousin is a Black OB/GYN in New Jersey.
    But and also the other thing is I--not anymore, but I was a 
proud member of Planned Parenthood. So, I know the services 
that they bring to the table for men and for women.
    But I just actually wanted to give any of you the 
opportunity. Is there something we haven't asked that you want 
to say, you want to drive home? I want to give you the 
opportunity to do that.
    Dr. Crear-Perry. Well, Congresswoman, I want to thank you 
for supporting the Office of--White House Office of Sexual 
Reproductive Health and Well Being. I really want to publicly 
thank you for leaning in to thinking about something bigger and 
more important at this moment that Black women have fought to 
ensure that we got the White House and we got Georgia. We 
deserve reproductive justice at the White House. And so we 
just--I just want to thank you. OK.
    Ms. Kelly. You are welcome. Anybody else?
    Mr. Johnson. So, I just also want to thank you, 
Congresswoman Kelly. I remember that you were the first person 
to actually bring me to D.C. to give me an opportunity to share 
Kira's story, and I am grateful. And I just am grateful for 
your leadership and you continue to be relentless to fight for 
families.
    The point that I want to drive home has been said but I 
want to make sure that we leave the members with it, is as we 
work to gain support, particularly bipartisan support, when and 
if you are asked--well, the first thing--the first point I want 
to make is, well, why are we making this about race. We didn't 
make this about race. The statistics did, first.
    Second point is that for all the members who were present 
today, if and when you are asked by your colleagues why we need 
specific legislation for Black women, the clear response is 
because if and when we fix this for Black women we fix it for 
all mothers.
    Ms. Kelly. That is such a excellent point and so true. And 
we keep talking about bipartisanship. I do have a bipartisan 
bill, H.R. 1350, Senate colleague Senator Brown and Toomey and 
my House colleague, Bob Latta. It would create the first 
representative National Advisory Committee on reducing maternal 
deaths. I will let you read the whole bill. But I hope many of 
you sign on to the bill.
    And I will just leave you with I am a mom and step mom. My 
husband and I have four kids between us, three adult women and 
my son. And I have one grandson, I have one on the way due in 
June and then we have one that is taking her sweet time.
    And I pray we get to the bottom of this and we do 
everything we can do to make sure all women deliver but 
particularly Black women can deliver healthy babies and can see 
their healthy babies grow up and have productive lives.
    I thank you all so much. It means the world. Yield back.
    Mr. Johnson. Madam Chair? Madam Chair?
    Ms. Kelly. Yes?
    Mr. Johnson. If I might interject right now. I neglected to 
commend you for your yeoman's work behind the scenes and in 
front of the scenes as chair of the CBC's Health Brain Trust.
    Ever since you have come to Congress, you--that was the 
mission and the mantle that you wanted to pick up and you 
picked it up and you have run with it, and you have gone across 
the country with it, educating people about issues of health 
care in the Black community, particularly as it relates to 
women.
    And so I want to commend you for your work, and there is no 
greater champion in Congress other than you on this issue. 
Thank you.
    Ms. Kelly. Thank you so much, and I yield back.
    And I would like to recognize another champion, the 
gentlewoman from Massachusetts, native Chicagoan Congresswoman 
Ayanna Pressley.
    Ms. Pressley. Thank you, Madam Chair, and thank you to the 
witnesses, again, for your willingness to share your expertise, 
an expertise that has been born out of great pain and trauma.
    Today, we hold space for that pain. When we know that for 
centuries Black pain has been ignored and delegitimized. So, we 
thank you for your dedication to maternal health justice in 
spite of that deep trauma and adversity that you have faced. 
You have set an example for Members of Congress to take 
immediate action and to save lives.
    My colleague was talking about how some colleagues might 
feel uncomfortable. This is not a space for fragility. This is 
not a space for timidity. The purpose of this hearing has been 
as investigative as it has been educational, as it has been 
prescriptive, about how we do the work of saving lives, because 
Black mamas matter, Black babies matter, Black lives matter.
    And although I appreciate the symbolism of plazas that 
paint that that and enlist that and on the ground--demonstrate 
on the ground very artfully, I never asked for a plaza.
    What this moment requires are policies and budgets that 
codify the value of Black lives. Those are the only receipts 
that matter in this moment of reckoning, and as has been stated 
throughout this hearing but bears repeating, we will never be 
able to fully address the Black maternal mortality crisis if we 
do not confront the underlying racism that has created it.
    And so while some have wrongfully asserted that racism is 
only interpersonal--one person hating someone else because of 
the color of their skin, today's discussion demonstrates that 
structural racism in our society is pervasive and far more 
insidious than a single act. In fact, some of the commentary by 
my colleagues across the aisle bears that out and proves that.
    So, again, this hearing is not focused on individual 
doctors and individual pregnancies. We are discussing a 
widespread culture of racism within systems and policies that 
endanger Black pregnant people across our Nation.
    And so that is why, because policy is my love language. 
because we have seen policy, policy violence, create 
inequities, disparities, racial injustices across every 
outcome, including health care.
    None of that is naturally occurring. So, if we can 
legislate hurt and harm, we can legislate equity, we can 
legislate healing, we can legislate justice, and we can, in 
fact, be actively anti-racist as lawmakers.
    And that is why I have partnered with Representative 
Barbara Lee and Senator Warren to introduce the Anti-Racism in 
Public Health Act. This is a first of its kind bill that will 
create a center on anti-racism in health at the CDC.
    If we seek to dismantle the racist systems and practices 
that create inequities that contribute to the Black maternal 
health crisis, we need robust comprehensive research on the 
public health impacts of structural racism and policy solutions 
to bring an end to these disparities once and for all.
    And so because I find myself at the unenviable end of this, 
most of my questions have already been asked and effectively 
answered. So, I will simply just end here and say structural 
racism puts Black people giving birth in danger and regardless 
of personal strength, educational attainment, or even fame or 
fortune.
    As Mr. Johnson so eloquently asserted, this is a matter of 
human rights. So, Congress has both the obligation and the 
tools to enact legislation, like the Anti-Racism and Public 
Health Act, like the Momnibus, all aimed at dismantling the 
racist policies that put Black people at risk daily.
    So, again, I thank our esteemed panel. I thank my sister in 
solidarity here who has been a teacher and a pacesetter on this 
issue. I thank our chair here, Robin Kelly, and, of course, our 
chair, Carolyn Maloney, for bringing us together today for this 
historic convening.
    Ms. Kelly. The gentlewoman from Massachusetts yields back. 
And now I would like to recognize the gentleman from 
California, Congressman Gomez.
    Mr. Gomez. Thank you so much, Madam Chair.
    First, let me thank Chairwoman Maloney for holding this 
important hearing. Also, I want to thank--just thank my 
colleagues Representatives Adams, Kelly, Pressley and 
Underwood. Thank you for your tireless work and leadership to 
secure equitable health outcomes for Black mothers and Black 
people.
    One of the things that--this is an issue that is not new to 
me. It is something I have been working on regarding just 
health equity, the health outcomes, and you see these 
statistics not only on maternal health but also when it comes 
to cancer outcomes.
    We know that a Black woman is more likely to die from 
breast cancer even though the incidence of breast cancer is 
higher in white women. This is something that has been not only 
bothering me but frustrating me and kind of making me angry, 
and because I tried of compare it to other injustices that we 
see.
    I tell people, if you are angry and you get mad when you 
hear that somebody is pulled over because of the color of their 
skin, you should just be as--just as angry and offended that a 
person, especially a Black woman, is more likely to die at 
childbirth because of the color of her skin.
    I equate them to being similar because it is--it is 
something that that we can--we can change if we take proactive 
steps to change it.
    It is something that we started talking about in the Ways 
and Means Committee. I am a member of the Ways and Means 
Committee. We had a hearing on it--on this issue as well.
    And the committee is so interested in trying to undo the 
inequity that is built into our system from the tax code to the 
health care system across the board that we have now a Racial 
Equity Working Group that I am part of with Congresswoman Terri 
Sewell from Alabama and Congressman Horsford from Nevada.
    And we had a speaker last week on one of the symposiums we 
had. It was Dean Bowen Matthews from the--she is a professor of 
law at George Washington University, and she was talking about 
health equity, health outcomes and she mentioned that access is 
just one part of it, that if you include--increase access, it 
improves outcome only by about 10 percent. So, she was saying 
that there is deeper, deeper inequities built into the system.
    And so it doesn't mean that we are not going to take care 
of that access component, but there is something else that we 
need to take care of.
    Dr. Taylor, I wanted to just ask, what are those other 
things that we can do through legislation? I know we have great 
pieces of legislation, but what is something that people don't 
think about when it comes to health outcomes for Black birthing 
people and Black mothers?
    Dr. Taylor. Thank you so much for your question.
    You know, it is interesting that you mentioned the example 
about breast cancer, and one of the things that we haven't 
touched on today is the health impacts of racism.
    When I say that, I mean, you know, what if Black folks deal 
with racist experiences on a day-to-day basis? That actually 
causes us to have premature death. It causes us to be 
chronically ill. It causes us to have mental health challenges.
    And so that means that when we are in a situation where we 
do get sick with a disease like cancer or we have issues with 
our pregnancies, they were already in a--you know, 
shortchanged, so to say, in a situation where, you know, our 
defenses are already down and that wear and tear on our bodies 
due to the racism that we experience on a day-to-day basis 
impacts our health. It makes us sick.
    So, I did want to lift that up because I think that also is 
directly connected to some of the stats that you lifted up in 
the conversation just about the health impacts of racism as 
well.
    In terms of policy, I think we have talked a lot today 
about, you know, issues around ensuring coverage, you know, for 
everyone, particularly for people of color, for Black women. We 
have talked about access issues.
    But, again, because racism is so ingrained in every corner 
of this country, meaning that the same woman that has those is 
going to have those challenges in the context of her pregnancy-
related outcomes may also be dealing with income inequality.
    She may also be dealing with the wealth gap. She may also 
be dealing with issues around access to higher education. And 
even though those things aren't directly related to, you know, 
her having worse maternal health outcomes because we know it is 
something that hits every person, every family, across the 
socio-economic strata, it is a problem and, you know, 
structural racism is directly connected to those issues as 
well.
    So, for me, I think we have to have a holistic approach in 
how we address racism. We have talked about legislation like 
the Momnibus, which is a comprehensive package of bills that 
address almost every dimension of the Black maternal health 
crisis.
    It deals with some of these other challenges around the 
social determinants of health and other issues. So, whatever we 
are putting forth, it needs to be comprehensive and it needs to 
be a whole of government approach.
    Mr. Gomez. Thank you so much for your answer. And although 
I am out of time, I just want to address, you know, I know some 
folks on the other side of the aisle don't believe this is a 
real thing.
    But I want--you got to look at the statistics. Why are the 
outcomes just worse for Black women, right, when it comes to 
health care and health outcomes? Answer the why, and then you--
and if everything is equal and that still exists, that means 
that there is something deeper than just access and what do we 
need to do to take care of it and reverse that problem, and I 
believe these bills are a step in that direction.
    With that I yield back.
    Ms. Kelly. The gentleman from California yields back.
    Now I would like to recognize the ranking member, 
Congressman Comer, from Kentucky.
    Congressman?
    Mr. Comer. Thank you, Madam Chair. And I have heard a lot 
of mention of the fact that one of the problems may be the fact 
that there aren't enough people of color in the medical field.
    And I was wondering what--to anyone on the panel, what can 
we do to change that? What can we do from a policy standpoint, 
in a bipartisan way, to try to create a situation where we have 
more people of color in the medical field serving the high 
minority populations, the underserved populations in the 
minority districts? And I will let anyone on the panel answer 
that.
    Dr. Crear-Perry. Well, I think that the pipeline--this is 
Joia--the pipeline programs are really important, especially in 
places like Kentucky, having access to, from elementary school, 
to middle school, to high school, being able to go to the 
medical school and see researchers, to see what research is, to 
be tied to--and, in fact, we have fewer Black men in medical 
school today than we did in the 1970's and that is because we 
have disinvested.
    And I wouldn't call it affirmative action. It is reparative 
action, to repair, the things that we need to do to repair the 
harm that has been caused by generational trauma.
    So, investing in pipeline programs, again, would be really 
critical and that--Congressman Gomez, when he mentioned breast 
cancer, I just want to give an explicit example of how that 
shows up in healthcare.
    I was trained that breast cancer in Black women was higher 
because we had higher--just higher rates biologically. Mayo 
Clinic did a study that made sure that every person had the 
same access to treatment, had the time off paid, had childcare 
services, and they were able to debunk this myth that we have a 
biological basis of higher rates of breast cancer, because we 
all have different breasts, different pelvises, different 
kidneys.
    So, that is the kind of information that we have to put in 
to our training schools when we get this pipeline together for 
ensuring that we have more providers of color.
    Dr. Gillispie-Bell. And I think if I can add to that, too, 
and I mentioned in my testimony having the pipeline programs 
for minorities to show them different careers in medicine, not 
just physicians or being a physician, but midwifery and 
physician's assistants, nurse practitioners, midwives, all of 
all of those different disciplines.
    But also, specifically, I can speak from medicine, there is 
structural racism even trying to get into medical school. The 
number of hoops and loops that you have to jump through, 
through tests that have been shown to just be able to take a 
test.
    They are not tests that show your ability to practice 
medicine, to accumulate the information that you need to be 
able to practice medicine, and not to even think about the cost 
that is incurred in going on interviews for medical school 
positions and, again, being able to take the test.
    So, also looking at those financial barriers that prevent 
people of color from being able to pass the many hoops and 
loops that we have now created to get into these professional 
schools.
    Mr. Comer. Anyone else want to pop in?
    Representative Pressley, are you still on the panel? Would 
you like to comment on that?
    Ms. Pressley. Oh, would I like to comment on that which 
they just offered?
    Mr. Comer. No. What can--what can we do to attract more 
minority students to the medical profession? That was one of 
the issues that they said was a problem, that we needed to get 
more African-American--more people of color involved in the 
medical profession and medical school, nursing, healthcare?
    Ms. Pressley. Well, actually, I am not on this panel. I was 
on the first panel.
    Mr. Comer. Oh, OK.
    Ms. Pressley. Yes. So but I--so I co-sign all with--all 
that which they just offered. I thought it was very specific in 
enumerating both the challenges, you know, and the 
opportunities necessary in order to diversify.
    Mr. Comer. And I--that is something that I would support 
and I think we would support, you know, anything that would be 
able to attract more people of color into the medical 
profession.
    And if there are instances of universities making it 
harder, discriminating against people of color to try to get 
into any type of medical profession, I would gladly join with 
Chairwoman Maloney in a bipartisan investigation into that or 
any barriers into financial aid to people of color that are 
trying to get into the medical profession or any other field, 
for that matter.
    So, hopefully, we can try to come up with some solutions to 
the problem in a bipartisan way, and I think that our side of 
the aisle--the minority--the minority conference is more than 
willing to do that.
    And we--many of us represent rural districts. I actually 
live in Appalachia. Appalachia was referred to earlier. I know 
that when my wife went into labor, we were real nervous because 
the hospital is an hour and a half away. You know, you are very 
spread out in, you know, rural America has challenges in health 
care.
    My local hospital--something was mentioned about Medicaid. 
My local hospital here, which is the second biggest employer in 
my hometown where I am sitting right now--is 89 percent 
Medicaid. That is what the annual rate is for our hospital 
every year. Eighty-nine percent of the revenue in the hospital, 
89 percent of the patients in the hospital are Medicaid 
patients.
    So, you know, and I think there is challenges throughout 
healthcare. Healthcare is the biggest problem we have in 
America.
    And I just want to close by saying we are more than willing 
to do anything we can to help with the situation and, 
obviously, I appreciate today's hearing and acknowledge that 
there is a problem and would be more than willing to work with 
any Democrat to try to solve the problem.
    So, Madam Chair, thank you for this hearing. And with that, 
I will yield back.
    Ms. Kelly. Thank you.
    Chairwoman Maloney. [Presiding.] Mr. Chairman, I want to 
thank you for your heartfelt response and willingness to work 
across the aisle on this critically important issue, to turn 
what we have learned today--the heart and purpose of this 
hearing--to turn it into the reality of laws, which can only 
happen in a bipartisan way. I thank you so much.
    I yield to my distinguished good friend and colleague, the 
great Robin Kelly, for her closing statements, and I also have 
a closing statement.
    Robin, thank you for your leadership today and for, really, 
your selfless leadership all the time that you have been in 
Congress toward the goal of passing these bills we are 
discussing today.
    I yield to Robin Kelly.
    Ms. Kelly. [Presiding.] Thank you, Chairwoman Maloney.
    I would like to thank all of our witnesses for sharing 
their expertise and heart-wrenching experiences with the 
committee and thank all of my colleagues for their careful 
attention to this testimony today.
    I also thank our colleagues for speaking on today's first 
panel. Congresswoman Pressley, Congresswoman Bush, 
Congresswoman Adams, and Congresswoman Underwood are leaders on 
this issue and have championed Federal policies to dramatically 
improve the quality of health care for Black people.
    And, finally, I would like to thank Chairwoman Maloney for 
her leadership in bringing this issue before the full committee 
and for her continued commitment to supporting legislation that 
can make a real difference in improving maternal health 
outcomes for Black people and their babies.
    The statistics we discussed today are shocking but not 
surprising. There is absolutely no justification for Black 
Americans to face three or four times the risk of dying during 
or after childbirth than white Americans.
    There is no justification for the American healthcare 
system failing to protect Black families from these, largely, 
preventable losses. We can and must take an evidence-based 
approach to root out systemic racism and racial bias in our 
healthcare system.
    We must undo the structural barriers that prevent Black 
people from receiving the care that they need and deserve. Now 
is the time to turn the tide on this crisis. Congress needs to 
enact the policies we heard about today to protect the health 
and well being of Black people and Black families across the 
United States.
    Before I close, I would like to enter into the record 
letters and statements the committee received regarding the 
urgent need to enact comprehensive reforms that will address 
our Nation's Black maternal health crisis.
    These include statements from the American Medical 
Association, the Blue Cross Blue Shield Association, March of 
Dimes, the University of Texas Southwestern Medical Center.
    And without objection, these materials are entered into the 
official hearing record.
    Ms. Kelly. And just thank you so much, again, Chairman 
Maloney, and I turn it back to you.
    Chairwoman Maloney. [Presiding.] Without objection, and I 
also add the UT Southwestern Medical Center to be added to the 
official record, without objection.
    Chairwoman Maloney. I just must say that I really believe 
that this hearing is transformational, I feel it is historical, 
and I feel that it is going to bring lasting change. I really 
do.
    And I feel the way we bring this change is by following up 
on what we have learned today, which I don't think anyone could 
listen to this hearing and listen to Mr. Johnson and Ms. Ali 
and not be moved in fundamental ways, and by the 
professionalism of our witnesses coming forward with concrete 
actions, in addition to the excellent hard work of my 
colleagues and friends in Congress.
    I congratulate Congresswomen Underwood and Adams for 
founding the Black Maternal Health Crisis Committee on which I 
serve with 140 of my colleagues, and, very importantly, working 
with Congresswoman Bush and with Congresswoman Kelly and others 
on a massive group of bills that are a step in the right 
direction.
    And I believe that our next step should be, and I started 
writing a letter today during this hearing, to the seven other 
committee chairs that have the real jurisdiction.
    Mr. Comer and I do not have the jurisdiction for this 
material. We decided, or I decided with all of you that we 
should have this hearing and get it moving.
    But if we all reach out to these chairmen, I believe they 
will very quickly have hearings on this and work with us to 
report the bills out so that they can be passed.
    I learned so much on it but I want to particularly thank 
Dr. Crear-Perry for some of the ideas that you put out that 
were new, and I particularly liked your idea of an Office of 
Reproductive Health and Well Being to develop the Federal 
strategy for ending this outrageous--I would call it a national 
scandal--a national scandal--that innocent women like Mr. 
Johnson's wife would have to suffer for 10 hours without 
medical treatment as they called for help.
    That is a national scandal that we have to stop in America, 
and your idea of having--you know, to promote the human 
infrastructure and to look at the human rights and racial 
equity that is involved.
    But something as large as this, it has to be coordinated 
throughout all of government. It is not a law. It is not one 
law. It is a coordination with everyone. So, to have a sort of 
central department that would interact with all of the agencies 
and Congress members on both sides of the aisle, and to focus 
on it in a very strategic way, I think, was a very excellent, 
excellent idea and I have written a bill draft already for this 
to add to our others.
    And all I can say is, you know, it takes a village. This 
has been a huge effort by a great number of people--doctors, 
nurses, researchers, scientists, and then my wonderful 
colleagues in Congress that have moved it forward so carefully 
and so strategically.
    It has to be bipartisan. I also want to thank my like-
minded colleagues on the other side of the aisle that are 
willing, as Representative Comer is, to work in a constructive 
way to move this idealism and rightful goal off the table and 
into the ground, from heart and purpose into the reality of 
strong laws that can be enforced.
    I am very grateful to all of my colleagues and all the 
professionals that made this happen, and I want to thank the 
staff of the Oversight Committee that put a lot of heart and 
work into this.
    This has been a labor of love on the part of our staff and 
I thank everyone, and all I can say is on to passage.
    Now, without objection, all members will have five 
legislative days within which to submit extraneous materials 
and to submit additional written questions for the witnesses to 
the chair, which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond as quickly as 
possible.
    And with that, this hearing is adjourned.
    [Whereupon, at 3:04 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
